1a
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 19-12857
-----------------------------------------------------------------------

D.C. Docket No. 1:17-cv-20323-CMA
EDELINE JULMISSE PROSPER,
as Personal Representative of the Estate
of Junior Prosper,
Plaintiff – Appellant,
versus
ANTHONY MARTIN,
Miami-Dade Police Officer, Badge 7819, individually,
Defendant – Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Florida
-----------------------------------------------------------------------

(March 5, 2021)
Before WILLIAM PRYOR, Chief Judge, TJOFLAT, and
HULL, Circuit Judges.
TJOFLAT, Circuit Judge:

2a
This case arises from an encounter between a taxicab driver named Junior Prosper and a Miami-Dade
police officer named Anthony Martin that resulted in
Prosper’s death. Prosper’s widow Edeline sued Martin
under 42 U.S.C. § 1983 in the United States District
Court for the Southern District of Florida. The District
Court found that Martin was entitled to qualified immunity and granted his motion for summary judgment.
Ordinarily, we would be required to decide a case
of this posture on the plaintiff ’s version of the facts. In
this case, however, Plaintiff ’s account is based on a
blurry surveillance video that depicts little more than
two persons engaged in a two-minute-long struggle in
the dark beside a busy highway. We must therefore
take the facts as told by the only living eyewitness
of those critical two minutes—Defendant Martin. On
those facts, we affirm the District Court’s decision to
grant summary judgment.
I.
A.
In the early morning hours of September 28, 2015,
Prosper was driving his taxi on NW 119th Street in
Miami when he apparently lost consciousness, allowing his taxi to slowly drift off the road and collide with
a pole near the I-95 on-ramp. Minutes later, a bus
driver named William Devy noticed Prosper’s taxi
and pulled over to assist. He approached the taxi on
foot and peered through the window. Seeing Prosper

3a
slumped over in the driver seat and breathing heavily,
Devy tapped on the glass. Prosper did not respond, so
Devy tapped louder. Prosper’s arm jerked, and Devy retreated to call 911.
He told the dispatcher that a taxi had run into a
pole and its driver looked like “he’s passing out.” After
a few minutes, Prosper exited the taxi and, as Devy
told the dispatcher, began “running” up the on-ramp
toward I-95. A tow truck operator named Raul Sandoval pulled over to ask Devy what was happening. Still
on the 911 call, Devy pointed to Prosper and told Sandoval he thought Prosper was drunk and had stolen the
taxi.
Officer Martin then arrived on the scene in response to a dispatch call that a taxi had run into a pole.
Devy and Sandoval pointed Prosper out to Martin, told
him Prosper was running up I-95, that he was “on
something” and “acting weird,” and that the taxi was
“probably stolen.” Martin then approached Prosper in
his police cruiser on the I-95 on-ramp, activated his
emergency lights, and commanded Prosper through
the cruiser speaker to “stop walking.” Prosper did not
obey Martin’s commands, but continued walking up
the ramp. Prosper’s gait struck Martin as abnormal
—in Martin’s words, Prosper was “stumbling” and
“looked like a zombie almost.”1 Observing that Prosper

1

Although not relevant to what a reasonable officer in Martin’s position would have surmised about Prosper’s behavior, see
infra Part III.A, there is evidence in the record suggesting that
Prosper was not, in fact, intoxicated on the night of his death.

4a
was coming dangerously close to traffic, Martin exited
his cruiser and approached Prosper on foot.
The parties disagree about what happened next,
but three things are undisputed: (1) Martin tased Prosper, (2) Prosper bit down on Martin’s left index finger,
and (3) Martin shot Prosper three times in the chest.
The parties dispute the manner and order in which
these events unfolded. Plaintiff ’s version of events is
based largely on a blurry surveillance video from a
nearby business, Biscayne Air Conditioning, Inc. (the
“Biscayne Air Video”). Martin’s version is based on his
own statement to police and his deposition testimony.2
We will present Martin’s version first, and then Plaintiff ’s.
According to Martin, Prosper punched him in the
face after he tried to direct Prosper away from highway
traffic. Martin struck back, took out his taser, and began commanding Prosper to “get down” and “get on the
ground” so that he could make an arrest. Prosper
started advancing toward Martin, and Martin discharged his taser, causing Prosper to fall down an embankment beside I-95.
Prosper crawled away from Martin through some
bushes and Martin pursued. Prosper then emerged
Evidence instead suggests that Prosper’s behavior may have been
caused by a brain infection.
2
Devy left the scene to go to work shortly after Martin arrived, and although Sandoval was still present, he stated it was
too dark for him to see most of the struggle. Thus, aside from the
little that Sandoval observed, Martin is the only living eyewitness
to the events.

5a
from the brush and began running toward a nearby
fence. While running, Prosper tripped and fell, allowing Martin to catch up to him. Martin ordered Prosper
to “turn over” and “place his hands behind his back.”
When Prosper did not obey, Martin drive stunned him
with his taser.3 Prosper then lunged at Martin, bit
down on Martin’s left index finger, and dragged Martin
down on top of him.
Martin dropped his taser and immediately began
trying to pry Prosper’s jaws open with his free hand
while begging Prosper to release his finger. When that
failed, he reached for his firearm and shot Prosper once
in the chest. Prosper continued biting Martin’s finger
while “twisting and turning” his head from side to side.
Martin shot Prosper a second time, and when Prosper
still did not release his finger, he fired a third shot, killing Prosper.
Now Plaintiff ’s version. Plaintiff denies that Prosper ever struck Martin. According to Plaintiff, after
Martin approached Prosper to direct him away from
traffic, the two lost their balance and fell down the embankment. Martin promptly got to his feet, gained distance from Prosper, and tased him three times as he
laid in the bushes. Prosper then crawled through the
bushes in retreat, and Martin pursued. Martin caught
up to Prosper and either drive stunned him or shot him
3

A taser can be used in either prong mode or drive stun
mode. A taser used in drive stun mode is less powerful and must
be used at point blank range. Martin could not use his taser in
prong mode because its cartridges had been depleted by the first
tasing.

6a
once with his firearm. As Prosper continued to flee,
Martin tackled him to the ground and began beating
him with his fists. His finger then became “lodged” in
Martin’s mouth,4 and he shot Prosper two or three
times in the chest without first pleading with Prosper
to release his finger.5
B.
Edeline Prosper, acting as personal representative
of the estate of Junior Prosper, sued Martin in his individual capacity in the United States District Court
for the Southern District of Florida on January 25,
2017. The District Court stayed the case on March 10,
2017 pending the completion of state investigations
into the incident. Once the investigations were completed, the case was re-opened, and Plaintiff filed her
First Amended Complaint on September 28, 2017.
On April 17, 2018, the District Court dismissed
Plaintiff ’s First Amended Complaint without prejudice on the ground that it was a shotgun pleading and
failed to state a claim upon which relief could be
granted. Plaintiff then filed her Second Amended Complaint, which the Court again dismissed on the ground

4

Plaintiff does not deny that Prosper bit Martin’s finger, but
insists that a reasonable jury could find that Prosper did not “bite
down hard” until after Martin shot him.
5
Plaintiff agrees that Martin only fired a total of three shots
but is noncommittal on whether the first shot was fired before or
after Prosper’s finger became “lodged” in Martin’s mouth.

7a
that it failed to identify how Plaintiff had any basis of
knowledge for the facts alleged.
On July 2, 2018, Plaintiff filed her Third Amended
Complaint, the operative complaint in the case. The
complaint contained a single count under 42 U.S.C.
§ 1983 alleging that Martin used excessive force by
tasing and shooting Prosper in violation of the Fourth
Amendment. Unlike her second complaint, Plaintiff ’s
third complaint identified the Biscayne Air Video as
the basis of her knowledge.
On July 23, 2018, Martin moved to dismiss Plaintiff ’s Third Amended Complaint on the grounds that it
failed to state a claim and that Martin was entitled to
qualified immunity. The Court denied Martin’s motion
and the parties proceeded to discovery.
On March 25, 2019, Martin moved to exclude two
of Plaintiff ’s expert witnesses under Daubert.6 Specifically, Martin challenged the opinions of Dr. Michael
Knox (an expert in “crime scene reconstruction”) and
Dr. Bruce Kohrman (a neurologist). Knox offered nine
opinions relating to the circumstances of the altercation between Martin and Prosper, the location of the
Biscayne Air surveillance camera, and what the Biscayne Air Video shows. Kohrman offered a single opinion regarding the cause of Prosper’s unusual behavior
on the night of his death. In his opinion, Prosper had
likely suffered a stroke, seizure, or brain infection.

6

Daubert v. Merrell Dow Pharm., Inc., 509 U.S. 579, 113
S. Ct. 2786 (1993).

8a
The District Court granted Martin’s Daubert motion in part. The Court agreed that Knox’s opinions interpreting the Biscayne Air Video would not be helpful
to a jury since Knox himself admitted that he does not
“purport to have some expertise to see anything in the
video that somebody else can’t see.” The Court also
found that Knox’s opinion that “Officer Martin could
have fired a minimum of three rounds from his service
weapon and a maximum of four rounds” was unhelpful
because it was undisputed that Martin fired at least
three shots, and whether he fired a fourth was a matter the jury could determine without Knox’s help.
Knox’s remaining opinions—concerning measurements
he had taken of the landscape where the altercation
occurred and the position of the Biscayne Air surveillance camera—would be helpful to a jury. As for
Kohrman’s opinion regarding the cause of Prosper’s behavior, the Court said it was both unreliable and unhelpful. It was unreliable because Korhman concluded
merely that Prosper may have suffered from one of
three separate neurologic events. It was unhelpful
because the cause of Prosper’s unusual behavior was
irrelevant to whether Martin’s use of force was objectively reasonable, since that cause was unknown to
Martin at the time.
Martin moved for summary judgment on the same
day he filed his Daubert motion. He argued he did not
violate Prosper’s Fourth Amendment rights because
his use of force was objectively reasonable under the
circumstances. In the alternative, Martin argued he
was entitled to qualified immunity because, to the

9a
extent he violated Prosper’s constitutional rights, those
rights were not “clearly established.” The District
Court agreed with Martin on both points and granted
his motion for summary judgment on July 1, 2019.
On appeal, Plaintiff argues that the District Court
abused its discretion in excluding the opinions of Knox
and Kohrman and erred in entering summary judgment for Martin. We reject Plaintiff ’s arguments and
affirm the District Court.
II.
We review a district court’s exclusion of expert testimony for abuse of discretion. Chapman v. Procter &
Gamble Distrib., LLC, 766 F.3d 1296, 1305 (11th Cir.
2014) (citing Gen. Elec. Co. v. Joiner, 522 U.S. 136, 141–
43, 118 S. Ct. 512, 517 (1997)). Unless the district
court’s decision is “manifestly erroneous,” we must defer to it. Id. (citation omitted).
We review a grant of summary judgment de novo,
viewing all evidence in the light most favorable to the
nonmoving party and resolving reasonable inherences
[sic] in her favor. Al-Rayes v. Willingham, 914 F.3d
1302, 1306 (11th Cir. 2019). Summary judgment is only
proper if there is no genuine issue as to any material
fact and the movant is entitled to judgment as a matter
of law. Fed. R. Civ. P. 56(a).

10a
III.
We first address Plaintiff ’s argument regarding
the District Court’s decision to exclude her experts’
opinions under Daubert. We then address her argument that the District Court erred in finding Martin
entitled to qualified immunity.
A.
Expert testimony is admissible under Federal
Rule of Evidence 7027 if: “(1) the expert is qualified to
testify regarding the subject of the testimony; (2) the
expert’s methodology is sufficiently reliable as determined by the sort of inquiry mandated in Daubert; and
(3) the expert’s testimony will assist the trier of fact in
understanding the evidence or determining a fact at
issue.” Chapman, 766 F.3d at 1304 (quotation marks
omitted). “The burden of establishing qualification, reliability, and helpfulness rests on the proponent of the
7

These three prongs are a judicial gloss on Rule 702, which

says:
A witness who is qualified as an expert by knowledge,
skill, experience, training, or education may testify in
the form of an opinion or otherwise if:
(a) the expert’s scientific, technical, or other specialized knowledge will help the trier of fact to understand
the evidence or to determine a fact in issue;
(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles
and methods; and
(d) the expert has reliably applied the principles and
methods to the facts of the case.

11a
expert opinion.” United States v. Frazier, 387 F.3d 1244,
1260 (11th Cir. 2004) (en banc).
The Supreme Court in Daubert v. Merrell Dow
Pharmaceuticals, Inc., identified four non-exhaustive
factors that will commonly bear on the second inquiry—i.e., the reliability inquiry:
(1) whether the expert’s methodology has been
tested or is capable of being tested; (2) whether
the theory or technique used by the expert has
been subjected to peer review and publication;
(3) whether there is a known or potential error rate of the methodology; and (4) whether
the technique has been generally accepted in
the relevant scientific community.
United Fire & Cas. Co. v. Whirlpool Corp., 704 F.3d
1338, 1341 (11th Cir. 2013) (per curiam) (citing Daubert, 509 U.S. at 593–94, 113 S. Ct. at 2796–97). These
factors are not “a definitive checklist or test,” Daubert,
509 U.S. at 593, 113 S. Ct. at 2796, and “the trial judge
must have considerable leeway in deciding in a particular case how to go about determining whether particular expert testimony is reliable,” Kumho Tire Co., Ltd.
v. Carmichael, 526 U.S. 137, 152, 119 S. Ct. 1167, 1176
(1999). The ultimate objective of the inquiry is “to
make certain that an expert, whether basing testimony
upon professional studies or personal experience, employs in the courtroom the same level of intellectual
rigor that characterizes the practice of an expert in the
relevant field.” Id. The judge “must determine whether
the evidence is genuinely scientific, as distinct from
being unscientific speculation offered by a genuine

12a
scientist.” Allison v. McGhan Med. Corp., 184 F.3d
1300, 1316–17 (11th Cir. 1999) (quotation marks omitted). Importantly, the reliability inquiry is limited to
“principles and methodology, not on the conclusions
they generate.” Daubert, 509 U.S. at 594–95,113 S. Ct.
at 2797.
The third inquiry—whether the expert’s testimony will assist the trier of fact in understanding the
evidence or determining a fact at issue—is commonly
called the “helpfulness” inquiry. See Frazier, 387 F.3d
at 1260. The touchstone of this inquiry is the concept
of relevance. See Daubert, 509 U.S. at 591, 113 S. Ct. at
2795 (noting that the helpfulness inquiry “goes primarily to relevance”). “Expert testimony which does not
relate to any issue in the case is not relevant and,
ergo, non-helpful.” Id. (quoting 3 Weinstein & Berger
¶ 702[02], p. 702–18). Even if the expert’s testimony is
relevant, it “generally will not help the trier of fact
when it offers nothing more than what lawyers for the
parties can argue in closing arguments.” Frazier, 387
F.3d at 1262–63. Thus, to be helpful, the testimony
must “concern[ ] matters that are beyond the understanding of the average lay person.” Id. at 1262.
Plaintiff argues the District Court abused its discretion in excluding the expert opinions of Knox and
Kohrman. To prevail, Plaintiff must convince us that
the Court made a clear error of judgment when it determined that Knox’s opinions were unhelpful and
Kohrman’s were both unhelpful and unreliable.8 See
8

That both experts are qualified is undisputed.

13a
Frazier, 387 F.3d at 1259 (“[W]hen employing an
abuse-of-discretion standard, we must affirm unless
we find that the district court has made a clear error
of judgment, or has applied the wrong legal standard.”). We are not convinced.
We agree with the District Court that Knox’s interpretation of the Biscayne Air Video was not helpful because it did not offer anything the jury could
not discern on its own. Knox asserted that the “physical and video evidence” did not indicate that Prosper
(1) punched Martin during their initial encounter,
(2) was standing when Martin first tased him, or that
(3) he was biting Martin’s finger at the time he was
shot. The basic observation underlying these three
opinions was that the video did not “really [show] much
of anything.” In Knox’s words, “It’s blobs, basically.”
“[A]nyone else watching the video,” Knox admitted, “is
going to see the same thing.” As the District Court
noted, the jury did not need Knox to tell them what
they could plainly see for themselves.
Plaintiff argues that Knox would do more than
“merely look at the video and tell the jury what he saw.”
His opinions, she says, are based on “decades of law enforcement experience in reviewing all the evidence, not
just the video, conducting such advanced analyses as
laser scanning, analyzing terrain and visual perspective, and creating computer models.” Even so, the fact
remains that Knox’s experience and knowledge in this
instance is simply not helpful. The jury can observe

14a
that the video depicts little more than “gross movements” without Knox’s aid.9
We also agree with the District Court that Kohrman’s opinion regarding the cause of Prosper’s erratic
behavior on the night of his death would not be helpful
to a jury. In Kohrman’s opinion, Prosper’s behavior was
not due to drugs or alcohol, but rather “stroke, seizure,
or [brain] infection” were the “most likely causes.”
Plaintiff argues that Kohrman’s opinion would be helpful to (1) rebut Martin’s contention that Prosper was
drugged or intoxicated at the time of the incident and
(2) show that Prosper “suffered some kind of neurological episode.” We disagree.
The District Court correctly observed that “[t]he
qualified immunity analysis . . . is limited to the facts
that were knowable to the defendant officers at the
time they engaged in the conduct in question.” Hernandez v. Mesa, 137 S. Ct. 2003, 2007 (2017) (quoting White
v. Pauly, 580 U.S. —, —, 137 S. Ct. 548, 550 (2017) (per
curiam) (quotation marks omitted)). Thus, whether
Prosper was drugged, intoxicated, or had suffered a
neurological episode was not relevant. What mattered
was what Martin could have known on that night and

9

Although the District Court excluded a fourth opinion offered by Knox regarding the capacity of Martin’s firearm, Plaintiff
makes no mention of it in her brief and has therefore abandoned
the point. See Sapuppo v. Allstate Floridian Ins. Co., 739 F.3d
678, 681 (11th Cir. 2014) (“A party fails to adequately brief a
claim when he does not plainly and prominently raise it.” (quotation marks omitted)).

15a
whether he acted as an objectively reasonable officer
under the circumstances.10
We conclude the District Court was within its discretion to exclude the opinions of both experts.
B.
Qualified immunity protects government officials
from money damages unless a plaintiff shows (1) that
the facts alleged, construed in the light most favorable
to her, establish that the official violated a statutory or
constitutional right, and (2) that the right was “clearly
established” at the time of the challenged conduct. Ashcroft v. al-Kidd, 563 U.S. 731, 735, 131 S. Ct. 2074, 2080
(2011); Shaw v. City of Selma, 884 F.3d 1093, 1099
(11th Cir. 2018).
The constitutional right at issue here comes from
the Fourth Amendment’s prohibition against unreasonable seizures of the person—specifically, the freedom from excessive uses of force. Graham v. Connor,
490 U.S. 386, 394–95, 109 S. Ct. 1865, 1870–71 (1989).
As with Fourth Amendment claims generally, the touchstone of excessive force claims is “reasonableness.” See
id. at 395, 109 S. Ct. at 1871. Determining whether an
officer’s use of force is reasonable “requires a careful
balancing of the nature and quality of the intrusion on
the individual’s Fourth Amendment interests against
10

Because we find that Kohrman’s opinion was unhelpful,
we need not decide whether the District Court abused its discretion in concluding that it was also unreliable.

16a
the countervailing governmental interests at stake.”
Id. at 396, 109 S. Ct. at 1871 (quotation marks omitted). “The calculus of reasonableness must embody allowance for the fact that police officers are often forced
to make split-second judgments—in circumstances
that are tense, uncertain, and rapidly evolving—about
the amount of force that is necessary in a particular
situation.” Id. at 396–97, 109 S. Ct. at 1872.
Importantly, we must judge the officer’s actions
“from the perspective of a reasonable officer on the
scene, rather than with the 20/20 vision of hindsight.”
Id. at 396, 109 S. Ct. at 1872. The question, ultimately,
is whether the officer’s actions were “objectively reasonable” in light of the facts and circumstances confronting him, including “the severity of the crime at
issue, whether the suspect poses an immediate threat
to the safety of the officers or others, and whether he
is actively resisting arrest or attempting to evade arrest by flight.” Id. at 396–97, 109 S. Ct. at 1872. When
the use of deadly force is at issue, we ask whether “the
officer had probable cause to believe that the suspect
posed a threat of ‘serious physical harm’ to the officer
or others, and whether the officer had given the suspect a warning about the use of deadly force, if doing
so was feasible.” Cantu v. City of Dothan, Ala., 974 F.3d
1217, 1229 (11th Cir. 2020).
In determining whether the constitutional right at
issue was “clearly established” at the time the officer
acted, we ask whether the contours of the right were
sufficiently clear that every reasonable officer would
have understood that what he was doing violates that

17a
right. al-Kidd, 563 U.S. at 741, 131 S. Ct. at 2083. A
plaintiff may show that a right was “clearly established” through: “(1) case law with indistinguishable
facts clearly establishing the constitutional right; (2) a
broad statement of principle within the Constitution,
statute, or case law that clearly establishes a constitutional right; or (3) conduct so egregious that a constitutional right was clearly violated, even in the total
absence of case law.” Perez v. Suszczynski, 809 F.3d
1213, 1222 (11th Cir. 2016) (quoting Lewis v. City of W.
Palm Beach, 561 F.3d 1288, 1291–92 (11th Cir. 2009)).
If a plaintiff relies on case law, the decisions must come
from the United States Supreme Court, the Eleventh
Circuit, or the highest court of the pertinent state.
McClish v. Nugent, 483 F.3d 1231, 1237 (11th Cir.
2007). However it is shown, “clearly established law”
must be “particularized” to the facts of the case, Anderson v. Creighton, 483 U.S. 635, 640, 107 S. Ct. 3034,
3039 (1987), and must not be defined “at a high level of
generality,” al-Kidd, 563 U.S. at 742, 131 S. Ct. at 2084.
We agree with the District Court that Martin
acted as an objectively reasonable officer both in tasing
and in using deadly force on Prosper. But before we explain why, we must determine the contours of the particular right alleged to have been violated, taking the
facts in the light most favorable to Plaintiff.
Plaintiff argues there are issues of fact regarding
whether Prosper (1) punched Martin during their initial encounter, (2) was standing when Martin first
tased him, and (3) was biting Martin’s finger at the
time he was shot. Martin’s deposition testimony

18a
answers all three questions in the affirmative, thus
constructing a situation where Prosper committed a violent felony (battery of a law enforcement officer),11
posed an “immediate threat” to Martin, and was resisting arrest. See Graham, 490 U.S. at 396, 109
S. Ct. at 1872. The Biscayne Air Video—or more precisely, Plaintiff ’s interpretation of it—gives a different
impression.12
Rather than showing punches thrown by Prosper,
Plaintiff claims the Biscayne Air Video shows merely
11

In addition to battery of a law enforcement officer in violation of Florida Statutes § 784.07(2)(b), Martin alleges that Prosper violated: § 316.061(1) (leaving the scene of an accident);
§ 316.130(18) (walking on a limited access facility or a ramp
connecting a limited access facility to any other street or highway); § 316.072(3) (failure to obey commands of police officials);
§ 843.02 (resisting an officer without violence to his person);
§ 843.01 (resisting an officer with violence to his person); and
§ 784.045(1)(a)(1) (aggravated battery).
12
In addition to the video, Plaintiff relies on a few other materials in the record to create an issue of fact as to whether Prosper punched Martin. We assume for the sake of discussion that
these materials are admissible, but we are unconvinced that
they create a fact issue. According to Plaintiff, police reports of
the incident show that “Martin did not immediately report any
punches.” On the contrary, the reports reflect that Prosper assaulted Martin not just by biting him but also by striking him
with his “Hands/Arms.” A report prepared by an officer arriving
on the scene after Prosper was shot describes the altercation in
vague terms—“they got into a struggle”—but such vagueness is
perfectly consistent with Martin’s testimony that Prosper struck
him. Another officer who had arrived on the scene testified that
Martin did not tell her that Prosper had punched him, but that
she knew “they got into an altercation.” This, too, is consistent
with Martin’s testimony and therefore fails to create an issue of
fact.

19a
that the two “los[t] their balance and f[e]ll together
into some nearby bushes.” It also shows, according to
Plaintiff, that Martin proceeded to “tase[ ] [Prosper] as
he lay on the ground in the bushes.” Finally, Plaintiff
argues it shows Martin chased Prosper down as he attempted to “crawl[ ] away from Martin through the
bushes,” stood over him “in a shooting position,” and
then either tased Prosper again or shot him with his
firearm. If Plaintiff is correct about what the Biscayne Air Video shows, then the question before us is
whether Martin violated Prosper’s Fourth Amendment
rights by tasing and shooting him without provocation
while he slowly retreated, and all before he ever bit
Martin’s finger. We believe Plaintiff makes too much of
the video.
Where there are “varying accounts of what happened” on summary judgment, we are required to
adopt the account most favorable to the nonmoving
party. Smith v. LePage, 834 F.3d 1285, 1296 (11th Cir.
2016) (quoting Perez, 809 F.3d at 1217). This principle,
though, is subject to the caveat that the nonmoving
party’s version of events must be sufficiently supported
by the record that a reasonable jury could find it to be
true. See Fed. R. Civ. P. 56(c)(1)(A) (“A party asserting
that a fact . . . is genuinely disputed must support the
assertion by citing to particular parts of materials in
the record . . . .”); Chapman, 229 F.3d at 1023 (“A genuine issue of material fact does not exist unless there
is sufficient evidence favoring the nonmoving party for
a reasonable jury to return a verdict in its favor.”). We
will not treat as true a party’s unfounded speculation

20a
about what happened. See Blackston v. Shook and
Fletcher Insulation Co., 764 F.2d 1480, 1482 (11th Cir.
1985); Smith, 834 F.3d at 1296.
Plaintiff ’s interpretation of the Biscayne Air Video
amounts to mere speculation, and the video therefore
fails to create the issues of fact that Plaintiff says it
does. Plaintiff herself described the video as “far from
a model of clarity,” and the expert witness she retained
to interpret it said “[you] can barely make out their
bodies. . . . You can’t make out really much of anything
other than some very gross movements.” A blurry video
that does not depict much of anything cannot give rise
to issues of fact about what did or did not happen on a
particular occasion. As the District Court noted, the
video “does not contradict [Martin]’s statements; at
best, it fails to corroborate them.” Martin’s version of
events thus remains unrebutted and controls our analysis.
Accordingly, the question before us is whether
Martin violated Prosper’s Fourth Amendment rights
by using deadly force after Prosper struck him in the
face, resisted arrest through three taser discharges,
and bit down on his finger while “twisting and turning”
with unabating intensity. Since Plaintiff also challenges Martin’s use of the taser as excessive, we must
decide whether that violated Prosper’s Fourth Amendment rights, as well. We are convinced the District
Court committed no error in finding that Martin acted
as an objectively reasonable officer in both respects.

21a
The critical inquiry on the deadly force claim is
whether an officer in Martin’s position reasonably
could have believed that Prosper posed a serious threat
of physical harm at the time Prosper had Martin’s finger in his mouth. See Shaw, 884 F.3d at 1099; Cantu,
974 F.3d at 1230. In making this assessment, we must
consider the “totality of the circumstances,” including
the events leading up to the point at which deadly force
was used and the impressions a reasonable officer
would have gleaned from them. See Shaw, 884 F.3d at
1099.
From the moment he arrived on the scene, a reasonable officer would have observed—as Martin did—
that Prosper was behaving irrationally and erratically.
As Martin put it, Prosper was “stumbling . . . [like]
something was wrong with him” and had an “out-of-it
look on his face.” He was also coming dangerously close
to the expressway, where traffic was zooming by at 60
or 70 miles per hour.
Once Martin attempted to engage Prosper, it
would have also become clear to a reasonable officer
that Prosper was unresponsive and non-compliant.
Martin approached Prosper in his cruiser and turned
on his flashing lights “[t]o let him know that . . . I was
the police, so . . . he would turn around.” But Prosper
did not turn around; he only continued stumbling toward traffic. Martin then shined his spotlight on Prosper and began commanding him over the cruiser
speaker to “stop, stop walking.” Prosper merely “turned
around and looked,” but kept walking.

22a
It goes without saying that once Prosper struck
Martin, a reasonable officer would know that he was
dealing with a man who was not only irrational, erratic, and unresponsive, but also violent. After the two
exchanged blows, Prosper continued to ignore Martin’s
repeated commands to “get down” and “get on the
ground,” which would have reinforced the impression
in a reasonable officer’s mind that his words were ineffectual on the suspect.13 Prosper was either ignoring
Martin’s words or was incapable of comprehending
them—the vacant look in his eyes, as if “he wasn’t all
there,” and the fact that he had not uttered a single
word throughout the encounter would have suggested
the latter. After Martin’s taser failed to subdue Prosper, a reasonable officer would also know that he was
resilient—that a given degree of force would produce a
lesser effect on him, perhaps, than it would on an average person.
The foregoing observations inform the way a reasonable officer would have assessed the danger posed
to his person, as well as the defense necessary to mitigate that danger, in the critical moments before Martin
fired the deadly shots into Prosper’s chest. At that
time, Martin’s finger was locked between Prosper’s
jaws and quickly going numb, and a reasonable officer
could well calculate that a plea or warning would be as
ineffectual as his previous attempts at communication.
13

When Martin attempted to arrest Prosper after tasing
him, Prosper continued to ignore Martin’s commands to “turn
over, turn over, lie on your back, turn over,” and “place his hands
behind his back.”

23a
Nonetheless, Martin pled with Prosper to “please stop”
and attempted in vain to pry his finger free. Martin
feared he might lose his finger, rendering him unable
to defend himself against further, potentially deadly
attacks from Prosper. In this “tense, uncertain, and
rapidly evolving” situation, Graham, 490 U.S. at 396–
97, 109 S. Ct. at 1872, it was reasonable for Martin to
believe that Prosper posed an imminent threat of serious physical harm to his person and that deadly force,
without any further warning, was necessary to prevent
that harm. Therefore, the District Court properly concluded that Martin’s use of deadly force did not violate
Prosper’s Fourth Amendment rights.
We also have no doubt that Martin’s use of his
taser on Prosper was reasonable under the circumstances. We have held that “the use of a taser gun to
subdue a suspect who has repeatedly ignored police instructions and continues to act belligerently toward
police is not excessive force.” Zivojinovich v. Barner,
525 F.3d 1059, 1073 (11th Cir. 2008) (citing Draper v.
Reynolds, 369 F.3d 1270, 1278 (11th Cir. 2004)); see
also Smith, 834 F.3d at 1294 (determining the use of
a taser was reasonable on suspect who was armed
with a knife, repeatedly disobeyed commands to drop
the knife, and moved toward officers with the knife);
Mobley v. Palm Beach Cnty. Sheriff Dep’t, 783 F.3d
1347, 1356 (11th Cir. 2015) (concluding the use of a
taser was reasonable to effectuate arrest of suspect
who was hostile, belligerent, and uncooperative); cf.
McCormick v. City of Fort Lauderdale, 333 F.3d 1234,
1245 (11th Cir. 2003) (holding that use of pepper spray

24a
was reasonable when officer “had probable cause to believe that McCormick had committed a violent felony”
and “could have reasonably determined that McCormick still posed a threat of further violence”). When an
officer uses his taser “against a non-hostile and nonviolent suspect who has not disobeyed instructions,”
however, he violates that suspect’s rights under the
Fourth Amendment. Fils v. City of Aventura, 647 F.3d
1272, 1289 (11th Cir. 2011); see also Oliver v. Fiorino,
586 F.3d 898, 907 (11th Cir. 2009) (concluding officer
used excessive force when he repeatedly tased suspect
“into and beyond his complete physical capitulation”).
According to Martin’s unrebutted testimony, he
first used his taser against Prosper after the two exchanged blows, and despite his commands to Prosper
to “get on the ground,” Prosper continued toward him.
It was thus reasonable for Martin to believe that Prosper posed an immediate threat to his person and would
not submit to arrest without a fight. Martin’s use of his
taser in this situation did not violate Prosper’s Fourth
Amendment rights.
For the foregoing reasons, the District Court committed no error in holding that Martin’s use of force did
not violate Prosper’s Fourth Amendment rights. The
Court’s entry of summary judgment was proper.
IV.
AFFIRMED.

25a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 17-20323-CIV-ALTONAGA/O’Sullivan
EDELINE JULMISSE PROSPER,
Plaintiff,
v.
ANTHONY MARTIN,
Defendant.

/
ORDER

(Filed Jul. 1, 2019)
THIS CAUSE came before the Court on Defendant, Anthony Martin’s Motion for Final Summary
Judgment [ECF No. 102]. Plaintiff, Edeline Julmisse
Prosper, filed a Response [ECF No. 117]; to which Defendant filed a Reply [ECF No. 141].1 The Court has
carefully considered the Third Amended Complaint
[ECF No. 60] (“TAC”), the parties’ submissions, the
record, and applicable law.

1

The parties’ factual submissions include: Defendant’s
Statement of Undisputed Material Facts [ECF No. 103] (“Def.’s
Facts”); Plaintiff ’s Response in Opposition to Defendant’s Statement of Facts [ECF No. 132] 1–10 (“Pl.’s Reply Facts”); Plaintiff ’s
Statement of Additional Material Facts [ECF No. 132] 10–18
(“Pl.’s Add’l Facts”); and Defendant’s Response to Plaintiff ’s
Statement of Additional Facts [ECF No. 141] 14–18 (“Def.’s Reply
Facts”).

26a
I.

BACKGROUND

This case arises out of a fatal encounter on September 28, 2015, between Junior Prosper (“Prosper”)
and Defendant, Miami-Dade police officer Anthony
Martin. (See TAC ¶ 3). Plaintiff, Edeline Julmisse Prosper, was Prosper’s wife and is the personal representative of his estate. (See id. ¶¶ 3–4).
The incident began when William Devy, a bus
driver, witnessed a taxi cab colliding with a street sign
near the on-ramp to I-95. (See Def.’s Facts ¶¶ 2–3).2
Devy stopped to assist and approached the taxi, which
was still running with its lights on. (See id. ¶ 4). Devy
saw Prosper sitting in the driver’s seat, slumped toward the passenger side of the car and breathing
heavily. (See id. ¶ 5). Devy called 911 and informed the
operator of the accident. (See id. ¶ 7). While Devy was
speaking with the 911 operator, Prosper moved across
the front seat of the car, exited through the passenger
door, and began walking toward I-95. (See id. ¶ 10).
Raul Sandoval, a tow truck operator, passed Devy
on the side of the road and pulled over to offer assistance. (See id. ¶ 18). Soon after, Defendant arrived on
the scene, rolled down his window, and spoke with
Devy and Sandoval. (See id. ¶¶ 27–28). Devy and
Sandoval told Defendant they believed Prosper “was
on something” and was “acting weird.” (Id. ¶ 28; Martin Dep. [ECF No. 103-8] 46:11–18). They also informed Defendant that Prosper had jumped out of the
2

cated.

All facts are considered undisputed unless otherwise indi-

27a
passenger side of the taxi and was running up the
ramp toward I-95. (Id. ¶ 29; Martin Dep. 46:11–18).
Defendant proceeded onto the ramp in pursuit of Prosper with his emergency lights flashing. (See Def.’s Facts
¶ 33).
As Defendant approached Prosper, Defendant issued several commands through his patrol car speaker,
which Prosper ignored. (See id. ¶ 34; Martin Dep.
49:15–50:4).3 Prosper appeared — at a minimum — to
be disoriented and stumbling as he walked within a
few feet of I-95. (See Pl.’s Add’l Facts ¶ 114; Def.’s Facts
¶ 35). Defendant, having been told by Devy and
Sandoval they thought Prosper was “on something,”
and having observed Prosper’s unusual gait, suspected
Prosper was under the influence of drugs. (See Def.’s
Facts ¶¶ 35–36). Because it appeared Prosper was
about to walk into traffic, Defendant exited his patrol
3

Plaintiff denies Prosper ignored verbal commands. (See
Pl.’s Reply Facts ¶ 34). Yet, Plaintiff fails to provide any evidence
or citation to the record to controvert this fact. (See id.). As Plaintiff fails to provide any evidence to the contrary, the Court deems
it admitted. See Local Rule 56.1(b) (“All material facts set forth in
the movant’s statement filed and supported as required above will
be deemed admitted unless controverted by the opposing party’s
statement. . . .” (alteration added)); see also Mid-Continent Cas.
Co. v. Basdeo, 742 F. Supp. 2d 1293, 1305 (S.D. Fla. 2010), aff ’d,
477 F. App’x 702 (11th Cir. 2012) (“[I]n accordance with Local
Rule [56.1], where a party has failed to direct the Court to evidentiary support in the record for any proposed contravening
material fact, the Court deems the corresponding proposed uncontroverted material fact admitted for purposes of the [motion]
for [s]ummary [j]udgment, provided that the Court finds the
statement of material fact at issue to be supported by the evidence.” (alterations added; footnote call number omitted)).

28a
car and tried to redirect Prosper away from the highway. (See id. ¶ 39). In recounting the events that took
place after Defendant exited his vehicle, Plaintiff relies
on a surveillance recording from a nearby building,
provided by Biscayne Air Conditioning, Inc. [ECF No.
105] (the “Biscayne Air Video”). The Biscayne Air Video
represents Plaintiff ’s primary source of evidence in
this action.
The parties disagree on several points about the
ensuing interaction between Defendant and Prosper.
Defendant claims he tried to redirect Prosper, for his
safety, away from the highway by placing his hand on
Prosper’s shoulder. (See Def.’s Facts ¶ 39).4 Defendant
states Prosper then struck him, and he struck Prosper
back. (See id. ¶ 42, 46). Defendant states this physical
struggle caused the parties to fall down an embankment on the side of the road. (See id. ¶ 47). According
to Plaintiff, no punches were thrown and the parties
simply “lost their balance and fell into the bushes
along the embankment . . . .” (Pl.’s Reply Facts ¶¶ 42–
47 (citing Biscayne Air Video)). Defendant states after
this initial altercation occurred, Defendant intended to

4

Plaintiff denies this fact, stating the Biscayne Air Video
shows “it did not appear Prosper would walk onto [sic] highway
or that Martin put his hand on Prosper’s shoulder.” (Pl.’s Reply
Facts ¶ 39). But in her own facts, Plaintiff asserts Prosper was
disoriented and stumbling along the highway (see Pl.’s Add’l Facts
¶ 114), and that Defendant “put his hands on Prosper’s shoulder”
(id. ¶ 124). Consequently, the Court accepts the fact as admitted.

29a
arrest Prosper and take him into custody. (See Def.’s
Facts ¶ 44).5
Once Defendant regained his footing, he took out
his Taser, which had an attached light. (See id. ¶ 49).
According to Defendant, Prosper appeared disoriented
and aggressive, while refusing verbal commands. (See
id. ¶¶ 48–50). Because Prosper was moving toward Defendant, Defendant discharged the Taser, and Prosper
fell down the embankment. (See id. ¶¶ 51–52). Plaintiff denies this version of events. Relying solely on the
Biscayne Air Video, Plaintiff states Defendant got up
after losing his balance and discharged the Taser at
Prosper, who remained lying on the ground. (See Pl.’s
Add’l Facts ¶¶ 139–142).
After the initial Taser discharge, Defendant lost
sight of Prosper, but could hear him trying to escape through the vegetation. (See Def.’s Facts ¶ 53).6
5

According to Defendant, Prosper had committed arrestable
offenses by violating the following sections of the Florida Statutes: section 316.061(1), by leaving the scene of an accident (see
Def.’s Facts ¶ 100); section 316.130(18), by walking on a limited
access facility (see id. ¶ 101); section 316.072(3), by failing to obey
commands from a police official (see id. ¶ 102); and sections
784.03(1)(a)(1) and 784.07(2)(b), by striking, making physical contact with, and/or pulling away from Defendant (see id. ¶ 104).
6
It is unclear why Plaintiff denies this statement. (See Pl.’s
Reply Facts ¶ 53). Plaintiff ’s citation to the Biscayne Air Video
undisputedly shows Prosper moving through the vegetation and
away from Defendant. (See Biscayne Air Video 4:14:30–4:14:42).
Plaintiff states “Martin was using a flashlight, creating inference
[sic] he could see Prosper.” (Pl.’s Reply Facts ¶ 53 (alteration
added)). Yet, in her statement of facts, Plaintiff asserts Defendant
“could not see Prosper while he was in the brush after the first

30a
Sandoval, who had followed the parties onto the ramp
to provide assistance, heard Defendant telling Prosper
to “[s]top,” “[d]on’t move,” and “[c]ome back.” (Sandoval
Dep. 188:7–11 (alterations added); Def.’s Facts ¶¶ 77–
78). At this point, Defendant deployed the Taser a
second time to prevent Prosper from escaping. (See
Pl.’s Add’l Facts ¶ 144). Defendant then moved along
the embankment and called dispatch to report that
Prosper was trying to escape. (See Def.’s Facts ¶¶ 54–
55).7
Defendant saw Prosper moving away from him
through the vegetation, and Defendant proceeded
down the embankment after him. (See id. ¶ 56; see
Resp. 3). Defendant caught up to Prosper, who had
tripped over vegetation and was on the ground. (See
Def.’s Facts ¶ 57; Pl.’s Add’l Facts ¶ 149). Defendant
was standing on higher ground, slightly above Prosper,
who was facing Defendant. (See Def.’s Facts ¶ 80).
Prosper ignored Defendant’s verbal orders to stop moving and to stay on the ground. (See id. ¶ 78; Sandoval
Statement [ECF No. 103-6] 33:15–17).8
Taser strike and could only hear him moving.” (Pl.’s Add’l Facts
¶ 145). As both parties independently agree to these facts, the
Court accepts them as admitted.
7
Plaintiff denies Defendant called dispatch to advise Prosper was attempting to escape (see Pl.’s Reply Facts ¶ 54) but admits Defendant “said something indecipherable over the dispatch
frequency” (id. ¶ 55).
8
Plaintiff denies this fact, stating the Biscayne Air Video
shows Prosper did not try to get up off the ground. (See Pl.’s Reply Facts ¶ 78). Nevertheless, Plaintiff repeatedly references
Prosper “rising” from the ground throughout her Response and

31a
At this point in the altercation, Defendant had
neither reached for nor taken out his firearm. (See
Def.’s Facts ¶ 58).9 Defendant attempted to arrest
Prosper by using his Taser to dry stun him. (See id.
¶ 59).10 According to both Defendant and Sandoval,
statements of facts. (See, e.g., Resp. 3 (“Prosper then rises briefly
and is seen being tackled by Martin.”); Pl.’s Reply Facts ¶¶ 61, 81
(same)). Again, this fact is not disputed by any record evidence,
and Plaintiff admits its truth elsewhere. As such, the Court accepts it as admitted.
9
Plaintiff denies this fact, relying on the Court’s August 31,
2018 Order [ECF No. 74], denying Defendant’s motion to dismiss
the TAC. (See Pl.’s Reply Facts ¶ 58). Plaintiff ’s reliance on the
August 31, 2018 Order is misplaced. The Order was based on an
undeveloped record at the motion-to-dismiss stage. The Court,
drawing all possible inferences in Plaintiff ’s favor, addressed
whether the Biscayne Air Video could show Defendant shooting
Prosper. (See id. 8).
The parties now provide narrative versions of the events,
placing the shots fired after the moment in question. (See Resp. 3;
Reply 6). In her own statement of facts, Plaintiff acknowledges
the shooting does not take place as was considered plausible in
the Court’s Order. (See Pl.’s Add’l Facts ¶¶ 149–160). Further,
Sandoval states no shots were fired until after he repositioned his
tow truck and exited the vehicle. (See Sandoval Dep. 178:8–17).
Indeed, the flashes of light seen in the Biscayne Air Video are seen
several seconds prior to Sandoval’s repositioning of the truck, and
the record evidence thus confirms the parties’ narratives. (See
Biscayne Air Video 4:14:56–4:15:08). As the record shows this fact
is undisputed, the Court accepts it as admitted.
10
Plaintiff denies this fact, stating Defendant “may have
shot Prosper prior to any bite.” (Pl.’s Reply Facts ¶ 59). The bite
Plaintiff references occurred during the ensuing physical engagement between Defendant and Prosper. Both parties submitted
statements of fact placing the bite after Defendant’s attempt to
dry stun Prosper. (See Pl.’s Add’l Facts ¶¶ 153–163; Def ’s Facts
¶¶ 59–69). Plaintiff admits the bite in fact took place after the
third and final use of the Taser. (See Resp. 15 (“[W]e know the

32a
Prosper lunged at Defendant, pulling him down onto
the ground. (See id. ¶ 61; Sandoval Statement 21:2–
24). Plaintiff disputes this fact, arguing the Biscayne
Air Video could be interpreted to show Defendant tackling Prosper. (See Pl.’s Reply Facts ¶ 61).
During this struggle on the ground, Defendant
and Prosper moved down the embankment and out of
Sandoval’s sight. (See Def.’s Facts ¶ 83; Pl.’s Reply
Facts ¶ 83). Sandoval then repositioned his truck to
shine its headlights on the area where Defendant and
Prosper were seen falling. (See id.). Sandoval exited his
truck and walked toward the embankment. (See id.).
Several seconds after exiting his vehicle, Sandoval
heard gunshots but was unable to see who had fired
the weapon. (See Def.’s Facts ¶ 84; Pl.’s Reply Facts
¶ 84).
According to Defendant, during the final altercation with Prosper, he was in excruciating pain as Prosper bit down on his finger while twisting his head left
and right. (See Def.’s Facts ¶¶ 62–63). Defendant
claims his finger began to go numb and he feared Prosper might sever his finger entirely. (See id. ¶¶ 65–66).
Fearing for his life and suffering great bodily harm,
Defendant unholstered his firearm and discharged it,
shooting Prosper in an attempt to free his hand from
Prosper’s mouth. (See id. ¶ 67). Instead of releasing
Defendant’s finger, Prosper bit down harder. (See id.
tasing took place before the minor finger bite.” (alteration and emphasis added)). As Plaintiff ’s denial is not supported by the record
evidence, this fact is admitted.

33a
¶ 68). As Prosper continued to bite down on Defendant’s finger, Defendant discharged his firearm a second
time. (See id.). Prosper did not release Defendant’s finger, and Defendant discharged his firearm a third time,
at which point Prosper finally released Defendant’s
finger. (See id. ¶ 69).
Plaintiff denies these facts. (See Pl.’s Reply Facts
¶¶ 62–69). Plaintiff submits an alternate version of the
incident, stating that after Defendant tackled Prosper,
Defendant punched Prosper in the face multiple times,
causing him to bleed from the mouth. (See Pl.’s Add’l
Facts ¶ 156). Plaintiff does not seem to deny a bite
occurred, but rather Plaintiff disputes how the bite
occurred.11 Plaintiff speculates as Defendant was
above Prosper and in the process of punching him, Defendant’s finger became lodged in Prosper’s mouth.
(See id. ¶¶ 157–158).12 Defendant then unholstered
his firearm and shot Prosper multiple times. (See id.
¶¶ 159–160).

11

(See Resp. 3 (“The Jury could find [Defendant’s finger]
lodged [in Prosper’s mouth] while Martin was punching Prosper
in the mouth. Martin then shoots Prosper the first time, causing
him to bite down harder, or so the jury could find.” (alterations
added)); 15 (“[W]e know that the tasing took place before the minor finger bite”); 19 (“Here, a reasonable jury could find that
the bite was defensive — not offensive — perhaps entirely involuntary.”)).
12
Plaintiff arrives at this characterization of the events from
Defendant’s statement, “when I was going down to make the contact, that’s when Mr. Prosper hopped up and put my finger in his
mouth.” (Pl.’s Add’l Facts ¶ 158 (citing Martin Dep. 135:13–21)).

34a
Prosper died as a result of the gunshot wounds.
(See id. ¶ 161). Defendant proceeded up the embankment toward I-95 and immediately called dispatch, reported shots fired, and requested dispatch send fire
rescue. (See Def.’s Facts ¶ 70). Defendant reported to
dispatch Prosper had tried to bite his finger off. (See id.
¶ 71). Sandoval saw Defendant bleeding from his
hand. (See id. ¶ 72; Sandoval Dep. 194:11–12).
Defendant was taken to Jackson Memorial Hospital for treatment. (See Def.’s Facts ¶ 89). Special Agent
John A. Subic of the Florida Department of Law Enforcement photographed Defendant in the hospital and
reported Defendant was seen with his uniform on, numerous sand spurs on his pants and shirt, a bandaged
index finger, blood on his shirt and arm, and a swollen
face. (See id. ¶ 90).13 Defendant suffered three separate
injury patterns on the top of his finger and one below
the finger. (See id. ¶ 92). The Jackson Memorial Medical Record notes Defendant “was bit on his left index
finger over the PIP joint today by another human . . . .
The wounds appear to be superficial.” (First Jackson
Medical Record [ECF No. 131-3] 39).
The bite on Defendant’s finger caused tissue displacement — consistent with head movement by the
person biting. (See Def.’s Facts ¶¶ 94–95).14 Although
13

Plaintiff disputes Defendant’s face was swollen based on
the photographs. (See Pl.’s Reply Facts ¶ 90).
14
Plaintiff denies these facts. (See Pl.’s Reply Facts ¶¶ 94–
95). Yet, each record Plaintiff cites fails to controvert Defendant’s
statements. (See id.; Pl.’s Add’l Facts ¶¶ 164–167). Plaintiff cites
a First Jackson Medical Record 39 (noting Defendant was bit and

35a
the bite on Defendant’s finger was described as “superficial at skin level only” (Pl.’s Add’l Facts ¶ 165), the
bite is consistent with causing pain (see Briggle Dep.
66:7–20) and could have caused temporary numbness
(see id. 72:16–20). On October 22, 2015, Defendant
was cleared to return to work full duty and no functional limitations were identified. (See Pl.’s Add’l Facts
¶ 170).
The TAC states one claim under 42 U.S.C. section
1983 for excessive force and deprivation of life. (See
generally TAC). Plaintiff contends Defendant’s uses of
his Taser and firearm, respectively, were excessive.15
the wound appears superficial); Second Jackson Medical Record
[ECF No. 131-4] 38 (Defendant “sustained a human bite to the
left index finger this morning. Patient is a police officer and was
arresting someone when the person bit the officer’s index finger
causing dorsal and volar wounds over the PIP joint. At this time,
the patient is reporting pain in the left index finger.”); and a University of Miami Hospital Record [ECF No. 131-5] 9 (noting Defendant suffered a human bite and the wound was treated by fire
rescue). As Plaintiff provides no evidence to controvert these
facts, the Court accepts them as admitted.
15
Defendant argues Plaintiff “has never alleged an excessive
force [sic] premised exclusively on the use of the Taser.” (Reply
13). The undersigned has previously noted the TAC’s allegations
are “threadbare.” (August 31, 2018 Order 7). Nonetheless, the
TAC does include allegations the “Taser effected [sic] and harmed
[Prosper]” and “[Prosper] had not done or said anything that necessitated the use of [the Taser] against [him] . . . .” (TAC ¶¶ 22–
23 (alterations added)). These allegations have been repeatedly
raised throughout the course of this action. (See, e.g., Response in
Opposition to Motion to Dismiss [ECF No. 69] 2 (“[T]he video
shows that Defendant Martin’s deployment of a taser and firearm
to seize Mr. Prosper lacked any rationale, legal or otherwise.” (alteration added))).

36a
(See id.). Regarding the instant Motion, Plaintiff insists her challenges to Defendant’s credibility as well
as ambiguities in the video evidence create triable
questions of fact precluding summary judgment. (See
Resp. 7–8).
Defendant argues Plaintiff “cannot simply manufacture a genuine dispute by seeking to establish an
alternative version of events” based upon “unsupported allegations and her speculative interpretation
of a grainy video.” (Reply 2). Defendant further contends Plaintiff cannot overcome summary judgment
on the basis of a credibility challenge without offering
evidence to contradict the material facts. (See id. (citation omitted)). Defendant seeks entry of final summary
judgment, arguing he is entitled to qualified immunity
as to all allegations in the TAC. (See generally Mot.).
II.

LEGAL STANDARDS

A. Summary Judgment
Summary judgment is rendered if the pleadings,
the discovery and disclosure materials on file, and any
affidavits show there is no genuine issue as to any material fact and the movant is entitled to judgment as a
matter of law. See Fed. R. Civ. P. 56(a), (c). An issue of
fact is “material” if it might affect the outcome of the
case under the governing law. See Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). It is “genuine” if
the evidence could lead a reasonable jury to find for
the non-moving party. See id.; see also Matsushita Elec.

37a
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587
(1986).
At summary judgment, the moving party has the
burden of proving the absence of a genuine issue of material fact, and all factual inferences are drawn in favor
of the non-moving party. See Allen v. Tyson Foods Inc.,
121 F.3d 642, 646 (11th Cir. 1997). Courts must consider the entire record and not just the evidence singled out by the parties. See Clinkscales v. Chevron
U.S.A., Inc., 831 F.2d 1565, 1570 (11th Cir. 1987). The
non-moving party’s presentation of a “mere existence
of a scintilla of evidence” in support of its position is
insufficient to overcome summary judgment. Anderson, 477 U.S. at 252.
If there are any factual issues, summary judgment
must be denied and the case proceeds to trial. See
Whelan v. Royal Caribbean Cruises Ltd., No. 1:12-CV22481, 2013 WL 5583970, at *2 (S.D. Fla. Aug. 14,
2013) (citing Envtl. Def. Fund v. Marsh, 651 F.2d 983,
991 (5th Cir. 1981)). Even when the parties “agree on
the basic facts, but disagree about the inferences that
should be drawn from these facts[,]” summary judgment “may be inappropriate.” Id. (alteration added; citation omitted). “If reasonable minds might differ on
the inferences arising from undisputed facts, then . . .
[c]ourt[s] should deny summary judgment.” Id. (alterations added; citations omitted). Additionally, courts
cannot weigh conflicting evidence. See Skop v. City of
Atlanta, Ga., 485 F.3d 1130, 1140 (11th Cir. 2007)
(quoting Carlin Commc’n, Inc. v. S. Bell Tel. & Tel. Co.,
802 F.2d 1352, 1356 (11th Cir. 1986)).

38a
B. Qualified Immunity
The defense of qualified immunity raised in response
to the claim in Plaintiff ’s TAC alters the summary
judgment analysis somewhat. Qualified immunity
protects government officials “from liability for civil
damages insofar as their conduct does not violate
clearly established statutory or constitutional rights.”
Ashcroft v. Iqbal, 556 U.S. 662, 672 (2009) (internal
quotation marks omitted) (quoting Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)). It “balances two important interests — the need to hold public officials
accountable when they exercise power irresponsibly
and the need to shield officials from harassment, distraction, and liability when they perform their duties
reasonably.” Pearson v. Callahan, 555 U.S. 223, 231
(2009).
To be entitled to the qualified immunity defense, a
government official must demonstrate “he was acting
within the scope of his discretionary authority when
the allegedly wrongful acts occurred.” Courson v.
McMillian, 939 F.2d 1479, 1487 (11th Cir. 1991) (internal quotation marks and citations omitted). When a
defendant acts within the scope of his discretionary authority, the burden “shifts to the plaintiff to show that
qualified immunity is not appropriate.”16 Lee v. Ferraro,
16

This two-step approach is enshrined in the Eleventh Circuit’s Zeigler/Rich analysis, which provides:
1. The defendant public official must first prove
that “he was acting within the scope of his discretionary authority when the allegedly wrongful acts occurred.”

39a
284 F.3d 1188, 1194 (11th Cir. 2002) (citation omitted).
The plaintiff can show qualified immunity is not appropriate by establishing (1) the defendant’s conduct
violated his or her constitutional rights; and (2) the
constitutional violation was clearly established at the
time. See Keating v. City of Miami, 598 F.3d 753, 762
(11th Cir. 2010) (internal quotation marks and citations omitted). These two requirements may be addressed in any order. See id. (citing Pearson, 555 U.S.
at 236).
The plaintiff “bear[s] the burden of showing that
the federal rights allegedly violated were clearly established.” Foy v. Holston, 94 F.3d 1528, 1532 (11th Cir.
1996) (alteration added; citations omitted). To satisfy
the “clearly established” requirement, a law may not
be “defined ‘at a high level of generality,’” and the
“clearly established law must be ‘particularized’ to the
facts of the case.” White v. Pauly, 137 S. Ct. 548, 552
(2017) (citations omitted). Although the Supreme
Court “do[es] not require a case directly on point, . . .
existing precedent must have placed the statutory or
2.

Once the defendant public official satisfies his
burden of moving forward with the evidence, the
burden shifts to the plaintiff to show lack of good
faith on the defendant’s part. This burden is met
by proof demonstrating that the defendant public official’s actions “violated clearly established
constitutional law.”
Courson, 939 F.2d at 1487 (quoting Zeigler v. Jackson, 716 F.2d
847, 849 (11th Cir. 1983) (per curiam)); see also Rich v. Dollar,
841 F.2d 1558, 1563–64 (11th Cir. 1988) (discussing two-part
test).

40a
constitutional question beyond debate.” Ashcroft v. alKidd, 563 U.S. 731, 741 (2007) (citations omitted; alterations added).
There are three ways a plaintiff may show a right
was clearly established: “(1) case law with indistinguishable facts clearly establishing the constitutional
right; (2) a broad statement of principle within the
Constitution, statute, or case law that clearly establishes a constitutional right; or (3) conduct so egregious
that a constitutional right was clearly violated, even in
the total absence of case law.” Perez v. Suszczynski, 809
F.3d 1213, 1222 (11th Cir. 2016) (internal quotation
marks and citation omitted). If case law is used, only
decisions of the Supreme Court, Eleventh Circuit, and
highest relevant state court can clearly establish the
law for qualified immunity purposes. See McClish v.
Nugent, 483 F.3d 1231, 1237 (11th Cir. 2007) (citing
Marsh v. Butler Cty., Ala., 268 F.3d 1014, 1032 n.10
(11th Cir. 2001)).
In addressing the qualified immunity defense at
summary judgment, “[a]ll issues of material fact are
resolved in favor of the plaintiff, and then, under that
version of the facts, the legal question of whether the
defendant is entitled to qualified immunity is determined.” Sparks v. Ingle, 724 F. App’x 692, 693 (11th Cir.
2018) (alteration added; citation omitted). Applying
the plaintiff ’s “best case,” “the court is able to move to
the question of whether the defendant committed the
constitutional violation alleged in the complaint without having to assess any facts in dispute.” Id. (internal
quotation marks and citation omitted).

41a
III.

ANALYSIS

The Court addresses Plaintiff ’s arguments regarding the Biscayne Air Video and Defendant’s credibility, and then turns to the merits of qualified
immunity as to both the use of non-lethal and lethal
force.
A. Ambiguities in the Biscayne Air Video
and Defendant’s Credibility
Neither Plaintiff ’s attempt to bring to the forefront ambiguities in the Biscayne Air Video, nor her attempt to cast doubt on Defendant’s credibility, preclude
entry of summary judgment.
First, ambiguities in the Biscayne Air Video.
Plaintiff argues her version of facts “may include one
of two possible interpretations of a video taken of the
incident in question.” (Resp. 7). Plaintiff relies on Keels
v. Zambrana, No. 15-CV-80546, 2018 U.S. Dist. LEXIS
119133 (S.D. Fla. July 16, 2018), to support her claim
an ambiguous video precludes summary judgment.
(See Resp. 7–8). Plaintiff ’s reliance on Keels is misplaced. In Keels, the plaintiff was the alleged victim of
excessive force. See Keels, 2018 U.S. Dist. LEXIS
119133, at *13. The plaintiff provided an affidavit detailing his version of events based on his first-hand recollection of the experience. See id. The defendants
provided a video of the incident, “[b]ut due to the
video’s poor image quality, lack of sound, unhelpful angle and distance, and unhelpful camera placement as
a result of a horizontal structural pole obfuscating the

42a
frame, it provide[d] little value on summary judgment.” Id. (alterations added). Because the video did
not conclusively refute Keels’ affidavit, “[d]efendants
failed at providing any objective record evidence” warranting summary judgment. Id. at *19 (alteration
added).
Unlike in Keels, Plaintiff has no first-hand
knowledge of the events that took place the night of the
incident. (See Def.’s Facts ¶ 1). Many of Plaintiff ’s assertions and denials are thus based solely on her speculative interpretation of a video, providing “little value
on summary judgment.” Keels, 2018 U.S. Dist. LEXIS
119133, at *13. To the extent the video can be interpreted to support Plaintiff ’s allegations, the Court
draws all reasonable inferences in her favor. See Lee,
284 F.3d at 1194 (citation omitted). Nevertheless, “an
inference based on speculation and conjecture is not
reasonable.” Blackston v. Shook and Fletcher Insulation Co., 764 F.2d 1480, 1482 (11th Cir. 1985) (citation
omitted).
Although “[t]he line between circumstantial evidence sufficient to support a finding under a substantial evidence standard and evidence which merely
permits conjecture or speculation is difficult to draw,”
it is the Court’s responsibility to do so. Id. (alteration
added). Given mere conjecture is insufficient to create
a genuine issue of fact and noting the video on which
Plaintiff relies is “far from a model of clarity” (Mot. 2
(quotation marks and citation omitted)), the undersigned finds ambiguities in the Biscayne Air Video do
not preclude entry of summary judgment.

43a
Next, Plaintiff questions Defendant’s credibility
because “a reasonable jury could find, when the evidence is viewed in the light most favorable to the
Plaintiff ” that some of Defendant’s statements are
false. (Resp. 4). Certainly, when evaluating whether a
party is entitled to qualified immunity, the Court must
take all the facts in the light most favorable to Plaintiff. See Lee, 284 F.3d at 1194 (citation omitted). But,
“[t]hough factual inferences are made in the [Plaintiff ’s] favor, this rule applies only ‘to the extent supportable by the record.’” Penley v. Eslinger, 605 F.3d 843,
853 (11th Cir. 2010) (alteration added; citation omitted;
emphasis in original). Thus, while Plaintiff may question Defendant’s credibility, these assertions do not
create a genuine dispute when Plaintiff “offer[s] no
evidence to contradict the[ ] material facts.” Id. (alterations and emphasis added; footnote call number omitted).
Plaintiff merely states there are several instances
“in which we know or a jury can find that [Defendant]
did not tell the truth.” (Resp. 7). Plaintiff insists several statements have proven to be false, pointing to the
Biscayne Air Video, the testimony of witness Raul
Sandoval, the expert opinion of Michael Knox,17 and
17

Dr. Michael Knox is the Chief Forensic Consultant at Knox
& Associates, LLC. (See Forensic Analysis & Reconstruction Report [ECF No. 132-7] 1). Knox’s relevant expertise is in Crime
Scene Investigation, Analysis & Reconstruction; Firearms, Ballistics & Shooting Incidents; Gunshot Wound Dynamics; Gunshot
Residue & Range of Fire Determination; and Bloodstain Pattern
Analysis. (See id. 2). Plaintiff hired Knox to prepare a report
based on Knox’s analysis and reconstruction of the incident

44a
the parties’ medical records in support. (See id. 4).
Plaintiff challenges the following statements: (1) Prosper punched Defendant prior to the Taser deployment;
(2) Defendant deployed his Taser because Prosper was
standing and appeared aggressive; (3) Prosper was attacking Martin from the ground during the third tasing; (4) Defendant pleaded with Prosper to release his
finger from Prosper’s mouth; and (5) Defendant shot
Prosper because he had bitten hard on his finger, causing him to fear it might be severed. (See id. 3–4). Even
though the challenged statements revolve primarily
around non-material facts, the Court addresses each in
turn.
Plaintiff relies on the Biscayne Air Video and
Knox’s opinion to dispute the first three statements —
Prosper punched Defendant; Prosper was standing;
and Prosper was attacking Martin from the ground.
(See Pl.’s Reply Facts ¶¶ 42, 48, 59–61). This evidence
fails to create any genuine dispute of material facts.
In Knox’s own words, Knox is “certainly not suggesting that [the Biscayne Air Video] — that it contradicts [the punch] . . . .” (Knox Dep. [ECF No. 104-2]
74:22–23 (alterations added)).18 Knox further admits it
between Defendant and Prosper, and Knox’s opinions as to the
reconstructed physics of the interaction between Martin and
Prosper are the subject of pending objections to an Order [ECF
No. 147] granting in part Defendant’s Motion to Exclude Dr.
Knox’s opinions. (See Plaintiff ’s Rule 72 Partial Objections . . .
[ECF No. 148]).
18
Although not cited in her Response, Plaintiff also disputes
Defendant’s statement regarding the punch with citations to
the MDPD Initial Incident Report [ECF No. 132-4]; Barbara

45a
is possible Prosper is standing after Defendant and
Prosper initially fall down the embankment. (See id.
66:4–14). Indeed, Knox admits Prosper is not even visible in the Biscayne Air Video at this point. (See id.).
Sandoval also states during the first application of the
taser, “[w]hen I pulled up . . . I do believe that [Prosper]
was standing.” (Sandoval Dep. 119:25–120:1). The evidence fails to support Plaintiff ’s assertions, which remain entirely speculative.
Plaintiff then relies on the Biscayne Air Video to
controvert Defendant’s statement Prosper attacked
him from the ground. (See Pl.’s Reply Facts ¶ 61).
Again, the video simply does not show what transpired
between Defendant and Prosper. (See generally Biscayne Air Video). Given the video’s lack of clarity, the
Court cannot make the inference Defendant’s statement is not true. What’s more, Sandoval’s deposition corroborates Defendant’s version of events. (See
Williams’ Deposition [ECF No. 132-5]; and Kerry White’s Deposition [ECF No. 132-6]. (See Pl.’s Reply Facts ¶ 42). Plaintiff ’s characterization of this evidence fails to persuade. The evidence cited
does not specifically say the word “punch.” And the evidence fails
to contradict Defendant’s statement in any material way. (See
MDPD Report 4 (“As [Defendant] got closer to [Prosper] to take
him into custody, they got into a struggle . . . .” (alterations
added)); Williams Dep. 31:1–5 (stating she described the events
as a “struggle” to avoid confusion); White Dep. 19:20–24 (stating
he had little communication with Defendant at the scene because
“any kind of shooting the first thing you are supposed to do is separate that officer, put him in the back seat, take his weapon and
be quiet. Don’t ask him no questions. That’s it.”). Reading the
statements in their entirety, they fail to create any genuine dispute of material fact. In any event, the Court’s analysis does not
rely on Defendant’s statement regarding the punch.

46a
Sandoval Dep. 189:7–12). While Prosper was on the
ground, Sandoval states he saw Prosper initiate “the
‘lunge,’ the ‘attack,’ the ‘engagement,’ whatever the
term is for it . . . .” (Id. (alteration added)).
Plaintiff denies Defendant pleaded with Prosper
to release his finger from Proper’s mouth. (See Pl.’s Reply Facts ¶ 64). Although Plaintiff provides no evidence to contradict Defendant’s statement, Plaintiff
“submits it is a reasonable inference that if Defendant
feared serious bodily harm that justified deadly force,
he would not have taken a moment or had the time to
beg Prosper to stop biting him.” (Id.). This fails to create a genuine dispute as to Defendant’s statement.
Finally, Plaintiff challenges Defendant’s statement that he shot Prosper because Prosper had bitten
down hard on his finger, causing him to fear it might
be severed. (See id. ¶ 66). Plaintiff argues the medical
records create “the reasonable inference Martin did
not have the fear of bodily harm he alleges.” (Id.). The
bite and circumstances surrounding the bite are discussed in greater detail in Section C of this Order. To
be clear, the medical records do not contradict Defendant’s statement. The records show Defendant was
bitten (see Jackson Medical Record 39), the bite would
have been painful (see Briggle Dep. 66:7–20), and the
bite could have caused temporary numbness (see id.
72:16–20).
The evidence — in the light most favorable to Plaintiff — does not contradict Defendant’s statements; at
best, it fails to corroborate them. Plaintiff ’s challenges

47a
to Defendant’s credibility are based on her own speculative interpretation of the evidence. “Consequently,
the evidence to which [Plaintiff ] cites does not create
a fact issue . . . and, therefore does not preclude summary judgment.” Penley, 605 F.3d at 853 n.4 (alterations added).
B. Use of Non-Lethal Force — the Taser
The parties’ briefing regarding qualified immunity
in the context of non-lethal force is cursory at best. Indeed, Plaintiff ’s entire argument on this issue is reduced to two lines, stating Defendant’s use of the Taser
is important here because the “sequence of events began with Officer Martin’s unlawful tasing of Junior
Prosper . . . [and] [t]he use of a Taser or stun gun in
itself may be excessive force.” (Resp. 14 (alterations
added; footnote call number omitted)). According to Defendant, “Eleventh Circuit precedent has ratified the
use of a Taser in situations far less egregious than this
one, even when the subject did not present a threat of
violence to the officers.” (Reply 13 (citations omitted)).
As it is undisputed Defendant was acting within
the scope of his discretionary authority (see Resp. 4–5),
Plaintiff must show Defendant’s use of the Taser “was
unconstitutional, and that the state of the law at the
time was clearly established so as to provide ‘fair warning’ to [Defendant] that such conduct was unconstitutional.” Wate v. Kubler, 839 F.3d 1012, 1019 (11th Cir.
2016) (alteration added; citations omitted). Plaintiff
fails to make either showing. (See generally Resp.).

48a
“The standard for whether the use of force was excessive under the Fourth Amendment is one of ‘objective reasonableness.’” Long v. Slaton, 508 F.3d 576, 580
(11th Cir. 2007) (quoting Graham v. Connor, 490 U.S.
386, 388 (1989)). “The ‘reasonableness’ of a particular
use of force must be judged from the perspective of a
reasonable officer on the scene, rather than with the
20/20 vision of hindsight.” Graham, 490 U.S. at 396 (citation omitted). A court looks to the “totality of circumstances” to determine whether the manner of arrest
was reasonable. Draper v. Reynolds, 369 F.3d 1270,
1277 (11th Cir. 2004) (quotation marks and citation
omitted). This analysis must “embody allowance for
the fact that police officers are often forced to make
split-second judgments — in circumstances that are
tense, uncertain, and rapidly evolving — about the
amount of force that is necessary in a particular situation.” Graham, 490 U.S. at 396–397. “[T]he qualified
immunity standard is broad enough to cover some mistaken judgment, and it shields from liability all but the
plainly incompetent or those who knowingly violate
the law.” Garczynski v. Bradshaw, 573 F.3d 1158, 1167
(11th Cir. 2009) (alteration added; quotation marks
and citation omitted).
The relevant material facts, taken in the light
most favorable to Plaintiff, show Defendant knew, or
could reasonably believe, Prosper (1) had fled the scene
of an accident (see Pl.’s Add’l Facts ¶ 110); (2) was intoxicated (see Def.’s Facts ¶ 28); (3) was stumbling
along the side of a busy highway (see Pl.’s Add’l Facts
¶ 114); (4) appeared disoriented (see id.); and (5) did

49a
not respond to verbal commands or verbally acknowledge Defendant (see Def.’s Facts ¶ 75). Additionally,
Defendant engaged Prosper and the two lost their
balance, tumbling down the embankment on the side
of the road (see Pl.’s Reply Facts ¶ 47); and once Defendant regained his footing, Prosper still appeared
disoriented and aggressive (see Pl.’s Add’l Facts
¶¶ 130–131).
Plaintiff disputes Defendant could reasonably believe Prosper was intoxicated or appeared aggressive.
(See Pl.’s Reply Facts ¶¶ 21, 35; Pl.’s Add’l Facts
¶¶ 118–119, 130). Plaintiff relies on evidence adduced
after the incident, asserting Prosper’s toxicology report
was negative and Prosper’s behavior may have been
caused by a stroke, seizure, or infection. (See Pl.’s Add’l
Facts ¶¶ 115–118). This argument fails to persuade.
Defendant’s actions must be judged from “the perspective of a reasonable officer on the scene, rather than
with the 20/20 vision of hindsight.” Graham, 490 U.S.
at 396 (citation omitted). The qualified immunity analysis “is limited to ‘the facts that were knowable to the
defendant officer[]’ at the time [he] engaged in the
conduct in question.” Hernandez v. Mesa, 137 S. Ct.
2003, 2007 (2017) (alterations added; citation omitted).
“Facts an officer learns after the incident ends —
whether those facts would support granting immunity
or denying it — are not relevant.” Id.
Plaintiff provides an alternative explanation for
Prosper’s erratic behavior but fails to explain how Defendant could have known the results of the toxicology
report or the expert’s diagnosis at the time the incident

50a
was unfolding. An after-the-fact explanation is irrelevant to a qualified immunity analysis if the officer is
incapable of reaching the conclusion at the time in
question. Witnesses corroborate Prosper appeared intoxicated and aggressive. (See Sandoval Dep. 150:6–
10). Certainly, Plaintiff does not dispute that Prosper
was disoriented, stumbling, could not maintain his
balance, and refused to verbally communicate with
Defendant. Under these circumstances, “a reasonable
officer on the scene” would believe Prosper was intoxicated. Graham, 490 U.S. at 396 (citation omitted).
Plaintiff also cites two cases, Glasscox v. City of
Argo, 903 F.3d 1207, 1215 (11th Cir. 2018) and Kubler,
839 F.3d at 1012, to support her claim Martin’s use of
a Taser was excessive. Notably, even if these cases
were factually similar to the events here — which they
are not — both cases post-date Defendant’s use of his
Taser and could not be used to show Prosper’s right
was clearly established at the time of the incident. See
Perez, 809 F.3d at 1221 (citation omitted).
In Glasscox, the court found a constitutional violation after the repeated use of a taser on a suspect who
was not resisting arrest; verbally communicated the
intent to comply with the officer’s commands; and was,
in fact, attempting to comply with the officer’s commands during the third and fourth discharge of the
taser, which “was wholly unnecessary, and grossly disproportionate to the circumstances.” 903 F.3d at 1216
(citation omitted). In Kubler, the court found a constitutional violation after the repeated use of a taser on a
suspect who was handcuffed, immobilized, and unable

51a
to present a risk of flight or a threat of danger to the
officers or the public. See Kubler, 839 F.3d at 1021. As
Prosper continued to resist arrest, made no effort to
comply with Defendant’s requests, was not immobilized,
presented a risk of flight, and was a threat to Defendant, these cases fail to present facts indistinguishable
from those before the Court. See Perez, 809 F.3d at
1222.
Plaintiff provides no other support for her contention Defendant’s use of the Taser violated Prosper’s
constitutional rights. (See generally Resp.). Defendant,
for his part, provides multiple cases supporting his argument he did not violate Prosper’s rights by discharging his Taser. (See Reply 13 (citing cases)). The Court
must agree with Defendant.
The Eleventh Circuit has found an officer’s initial
use of a taser on a hand-cuffed, non-violent suspect did
not violate the suspect’s constitutional rights. See
Buckley v. Haddock, 292 F. App’x 791, 799 (11th Cir.
2008). The Eleventh Circuit has also found an officer
may use a taser on a non-compliant suspect without
issuing a verbal arrest command. See Draper, 369 F.3d
at 1278. Indeed, where a suspect appears aggressive
and uncooperative, “use of a taser might be preferable
to a ‘physical struggle [causing] serious harm’ to the
suspect or the officer.” Fils v. City of Aventura, 647 F.3d
1272, 1290 (11th Cir. 2011) (citation and quotation
marks omitted; alteration in original). “[Eleventh Circuit] decisions demonstrate that the point at which a
suspect is handcuffed and ‘pose[s] no risk of danger to
the officer’ often is the pivotal point for excessive-force

52a
claims.” Mobley v. Palm Beach Cty. Sheriff Dep’t, 783
F.3d 1347, 1356 (11th Cir. 2015) (first alteration added;
citations omitted). The Eleventh Circuit “ha[s] held a
number of times that severe force applied after the suspect is safely in custody is excessive.” Id. (alteration
added; citations omitted; emphasis in original).
The undisputed material facts show it was reasonable for Defendant to believe Prosper — who ignored
repeated verbal commands, attempted to escape, and
appeared visibly disoriented — was intoxicated and
aggressive. (See, e.g., Sandoval Dep. 154:12–16, 188:7–
24; Pl.’s Add’l Facts ¶¶ 144–47; Resp. 3). At no point
during the encounter was Prosper “safely in custody,”
Mobley, 783 F.3d at 1356, nor sufficiently restrained so
as to pose no risk of danger to Defendant. Given the
“‘difficult, tense and uncertain situation[,]’ the use of a
taser gun to subdue a suspect who has repeatedly ignored police instructions and continues to act belligerently toward police is not excessive force.” Zivojinovich
v. Barner, 525 F.3d 1059, 1073 (11th Cir. 2008) (alteration added; citation omitted). Accordingly, Defendant’s
use of non-lethal force did not violate Plaintiff ’s constitutional rights, and Defendant is entitled to qualified
immunity for the use of the Taser.
C. Use of Deadly Force — the Firearm
1. Constitutional Violation
During an arrest, an officer is justified in the use
of deadly force where he “has probable cause to believe
that the suspect poses a threat of serious physical

53a
harm, either to the officer or to others.” Long v. Slaton,
508 F.3d 576, 580 (11th Cir. 2007) (quoting Tennessee
v. Garner, 471 U.S. 1, 11 (1985)). An officer will be entitled to qualified immunity in the absence of actual
probable cause if he has arguable probable cause.
See Garczynski, 573 F.3d at 1167 (citation omitted).
“[B]ecause only arguable probable cause is required,
the inquiry is not whether probable cause actually existed, but instead whether an officer reasonably could
have believed that probable cause existed, in light of
the information the officer possessed.” Montoute v.
Carr, 114 F.3d 181, 184 (11th Cir. 1997) (citations omitted). “Qualified immunity thereby protects officers
who ‘reasonably but mistakenly conclude that probable cause is present.’” Garczynski, 573 F.3d at 1167 (citation omitted).
Plaintiff argues “there is zero evidence that [Prosper] pose[d] any objective threat to Officer Martin, and
certainly not a threat warranting the use of deadly
force.” (Resp. 3 (alteration added)). Not so. The undisputed facts show (1) Prosper was attempting to escape
Defendant, who intended to arrest him (see Pl.’s Add’l
Facts ¶¶ 144–147); (2) Prosper ignored repeated warnings to stop moving and stay on the ground (see Def.’s
Facts ¶¶ 57, 78; Sandoval Dep. 188:7–24); and (3) Prosper bit Defendant during a physical altercation that
resulted in Defendant discharging his firearm (see
Def.’s Facts ¶¶ 61–69; Martin Dep. 138:13–21).
The facts critical to the Court’s analysis relate to the
bite and subsequent discharge of Defendant’s firearm.
Defendant’s account of the incident is straightforward:

54a
Prosper was biting his finger; Defendant could not get
Prosper to release his finger; and because Defendant
feared Prosper might sever his finger, Defendant discharged his firearm at Prosper. (See Def.’s Facts ¶¶ 61–
69). Plaintiff relies primarily on the Biscayne Air Video
to dispute these facts. (See Pl.’s Reply Facts ¶¶ 61–69).
First, Plaintiff states the Biscayne Air Video
shows “Prosper does not lunge at Martin” (Pl.’s Reply
Facts ¶ 61), and also “show[s] Prosper did not twist and
turn while biting Martin’s finger, much less before he
was shot” (id. ¶ 63 (alteration added)). These statements are not in fact supported by the Biscayne Air
Video or any other record evidence. Plaintiff ’s own expert found “[y]ou certainly can’t make out details, like,
whether or not somebody’s got a finger in the mouth or
anything like that. So, there would be no way to use
that video evidence to either determine that it supports
or refutes what took place. It just doesn’t answer the
question.” (Knox Dep. 87:15–20 (alteration and emphasis added)). Plaintiff cannot rely on the Biscayne Air
Video to controvert facts regarding the bite, given the
video is “evidence which merely permits conjecture or
speculation.” Blackston, 764 F.2d at 1482. Plaintiff ’s
insistence the Biscayne Air Video reveals alternative
facts about the bite are grounded in pure speculation
and are therefore “not reasonable.” Id.
Next, Plaintiff cites a DNA Report stating there
was an “absence of Martin’s DNA in Prosper’s mouth.”
(Pl.’s Reply Facts ¶ 63 (citing DNA Report [ECF No.
132-9])). Plaintiff mischaracterizes the results of the
DNA analysis — the forensic report shows only the

55a
blood around Prosper’s mouth was Prosper’s own
blood. (See generally DNA Report). This is consistent
with the other record evidence. (See Workers’ Comp.
Record [ECF No. 131-2] 68 (reporting Defendant was
treated for exposure to blood or body fluid and Prosper
was bleeding from the mouth when he bit Defendant’s
index finger and would not let go)).
The remaining evidence cited by Plaintiff — photos of Defendant’s finger [ECF No. 103-11], Dr. Briggle’s Deposition [ECF No. 103-12],19 and paragraphs
164–171 of her facts — fail to controvert Defendant’s
testimony, and in fact support a finding that Prosper
did bite Defendant. (See Pl.’s Reply Facts ¶ 63). Based
on the lack of severity of the bite, Plaintiff seems to
rely on this evidence to challenge the reasonableness
of Defendant’s application of deadly force. (See Pl.’s
Add’l Facts ¶ 164–171). Yet, none of Plaintiff ’s evidence controverts Defendant’s statement Prosper was
biting his finger.
Based on the foregoing evidence, Plaintiff asks
the Court to make the inference Defendant’s finger
became lodged in Prosper’s mouth while Defendant
was punching him. (See id. ¶¶ 157–158). To support
this inference, Plaintiff references Defendant’s Workers’ Compensation Record and Deposition. (See id.
¶¶ 156, 158). Again, neither citation supports Plaintiff ’s
19

“Q. And I think we mentioned earlier, clearly because
there’s tissue displacement and there was a bite mark there,
there had to be a bite and simultaneous movement in order to
create that level of damage, that level of displacement of the tissue? . . . THE WITNESS: Yes.” (Briggle Dep. 68:23–69:4).

56a
characterization of events. (See Workers’ Comp. Record
68 (stating Prosper “was bleeding from mouth when
[Prosper] bit[ ] his left index finger and wound [sic] not
let go. [Defendant] had to struggle to get his finger
free.” (alterations added)); Martin Dep. 135:13–21
(“Like I said, it’s — when I was going down to make the
contact [with the Taser], that’s when Mr. Prosper
hopped up and put my finger in his mouth.” (alteration
added))).
Plaintiff asks the Court to make an inference that
is wholly speculative and not supported by any record
evidence.20 This, the Court will not do. “As the Supreme
20

Plaintiff does not point to, nor has the Court found, any
record or account of the bite that contradicts Defendant’s statement. Indeed, the evidence supports only one version of events —
Defendant’s. (See, e.g., Williams Dep. 21:5–9 (“Q. You did hear
[Defendant] saying, ‘He’s biting me’? A. Yes, ‘My finger, he’s biting
me.’ Q. And then after he said, ‘He’s biting me,’ is that when he
went silent? A. After shots were fired.” (alteration added)); White
Dep. 17:16–17 (“[Defendant] said something to the fact that he
thought the guy bit his finger off.”); First Jackson Medical Record
39 (“[Defendant] was bit on his left index finger over the PIP joint
today by another human.” (alteration added)); Second Jackson
Medical Record 38 (“[Defendant] is a police officer and was arresting someone when the person bit the officer’s index finger causing
dorsal and volar wounds over the PIP joint. At his time, the patient is reporting pain in the left index finger.” (alteration added));
University of Miami Medical Record (“[Defendant] presents to
workers’ compensation clinic for human bite he sustained on
9/28/15 during an altercation while working as a police officer.”
(alteration added)); Workers’ Comp. Incident Report [ECF No.
131-6] (“[Defendant] WAS BITTEN BY A HUMAN ON THE
LEFT HAND WHICH WAS BLEEDING . . . .” (alteration added));
OMCA Medical Record [ECF No. 131-7] 4 (“[Defendant] had left
index finger laceration after human bite on 09/28/2015 . . . .” (alteration added)).

57a
Court has instructed, ‘[w]hen opposing parties tell two
different stories, one of which is blatantly contradicted
by the record, so that no reasonable jury could believe
it, a court should not adopt that version of the facts for
purposes of ruling on a motion for summary judgment.’” Perez, 809 F.3d at 1221 (citation omitted; alteration in original). There is no evidentiary support for
Plaintiff ’s version of the events, nor is there any evidence to controvert Defendant’s version.
Taken together, the undisputed facts show “a reasonable officer could — and likely would — have perceived [Prosper] as posing an imminent threat of
serious physical harm.” Martinez v. City of Pembroke
Pines, 648 F. App’x 888, 893 (11th Cir. 2016) (alteration
added) (finding use of deadly force reasonable where
suspect ignored the officers’ commands and, while still
handcuffed, suddenly advanced to within a few feet of
the defendant).
The clear and imminent threat posed by Prosper
biting Defendant entitles Defendant to qualified immunity because “[i]t is reasonable, and therefore constitutionally permissible, for an officer to use deadly
force against a person who poses an imminent threat
of serious physical harm to the officer or others.” Id.
(citing Robinson v. Arrugueta, 415 F.3d 1252, 1256
(11th Cir. 2005) (alteration added; other citation omitted)). Again, the undisputed facts21 show (1) Prosper
21

Plaintiff does not deny any of the specific facts on which
the Court relies with citations to record evidence beyond the
Biscayne Air Video. (See generally Pl.’s Reply Facts; Pl.’s Add’l
Facts). Plaintiff ’s denials are thus insufficient. See Garczynski,

58a
“continu[ed] to resist arrest” (Def.’s Facts ¶ 57); (2) the
Taser “had no effect on Prosper” (id. ¶ 60);22 (3) Prosper
and Defendant were engaged in a physical confrontation on the ground prior to Defendant’s use of deadly
force (see id. ¶¶ 61–66; Pl.’s Add’l Facts ¶¶ 156–158);
and (4) Prosper bit Defendant prior to the use of deadly
force (see Def.’s Facts ¶¶ 61–67; see also Pl.’s Add’l
Facts ¶¶ 157–159). These facts are indistinguishable
from those in Martinez, where the arrestee was “unresponsive to all commands and gestures, impervious to
the [T]aser, and otherwise unable to be restrained.”
Martinez, 648 F. App’x at 893 (alteration added). Accordingly, Defendant’s “decision to use deadly force
was reasonable under the circumstances, and thus in
compliance with the Fourth Amendment.” Id. at 894.
2. Clearly Established Law
Even assuming a constitutional violation, Defendant is entitled to qualified immunity unless Plaintiff
can show Prosper’s Fourth Amendment rights were
clearly established at the time of the shooting. See id.
573 F.3d at 1165 (“A genuine dispute requires more than some
metaphysical doubt as to the material facts. . . . A mere scintilla
of evidence is insufficient; the non-moving party must produce
substantial evidence in order to defeat a motion for summary
judgment.” (internal quotation marks and citations omitted; alteration added)).
22
Plaintiff fails to cite any evidence to controvert Defendant’s statement. (See Pl.’s Reply Facts ¶ 60). The evidence shows
Prosper continued to ignore verbal commands and attempt to
escape after use of the Taser. (See Def.’s Facts ¶¶ 50, 52, 56; see
also Resp. 3). This fact is therefore admitted.

59a
This requires citation to decisions of the Supreme
Court, Eleventh Circuit, or the highest relevant state
court. See McClish, 483 F.3d at 1237. It is Plaintiff ’s
burden to “demonstrate that, from the preexisting law,
the deputy had ‘fair and clear notice’ that the deputy’s
conduct would break federal law.” Buckley, 292 F. App’x
at 797 (citations omitted).
Plaintiff relies primarily on the August 31, 2018
Order and the cases the Court cited there. (See generally Resp. 16–17). Plaintiff also includes citations to
the following Eleventh Circuit case law: Glasscox, 903
F.3d 1207; St. George v. Pinellas County, 285 F.3d 1334
(11th Cir. 2002); and Mercado v. City of Orlando, 407
F.3d 1152 (11th Cir. 2005).23 Neither the Court’s Order
nor the cases cited address facts directly comparable
to the undisputed facts in this case. Once again, only
“indistinguishable facts” can clearly establish a constitutional violation. Perez, 809 F.3d at 1222 (citation
omitted).
Plaintiff fails to discern the difference between the
law applicable to a motion to dismiss and a motion for
summary judgment. The August 31, 2018 Order made
clear the “Court understands a wealth of evidence may
exist to contradict Plaintiff ’s claim.” (Id. 13). The undersigned then noted “[a]t this stage of proceedings,
the Court must credit Plaintiff ’s allegations [in the
23

Plaintiff fails to complete her argument regarding Mercado.
(See Resp. 18). Plaintiff’s Response ends abruptly mid-explanation
before moving on to a new argument. (See id. 18–19). Nevertheless, the Court considers Mercado in addition to Plaintiff ’s other
arguments.

60a
TAC] and draw all reasonable inferences in her favor.”
(Id. (alteration added)). By crediting the allegations in
the TAC as true, the Court found “[u]nder Eleventh
Circuit precedent, the use of deadly force against Prosper — who was unarmed, fleeing from Defendant, and
allegedly did not pose a threat — violated Prosper’s
Fourth Amendment right to be free from excessive force.”
(Id. 12 (alteration added; citation omitted)). Based on
those allegations made by Plaintiff, the Court found
Tolan v. Cotton, 572 U.S. 650 (2014), and Gaillard v.
Commins, 562 F. App’x 870 (11th Cir. 2014), were
“clearly ‘particularized to the facts of [this] case.’” (Order 13 (citation omitted; alteration in original)).
With discovery completed, the record does not support the referenced allegations of the TAC. Plaintiff
“may not rest upon mere allegation or denials of his
pleading but must set forth specific facts showing that
there is a genuine issue for trial.” Anderson, 477 U.S.
at 256 (quotation marks and citation omitted). The
facts show Prosper unquestionably posed a threat to
Defendant. Prosper appeared hostile and aggressive
(see Sandoval Dep. 150:6–10; Martin Dep. 74:16–20);
ignored repeated verbal commands (see Def.’s Facts ¶ 78;
Sandoval Statement 33:15–17); was non-compliant after the use of Defendant’s Taser (see Def.’s Facts ¶ 60);
and bit Defendant’s finger during a physical altercation on the ground (see Def.’s Facts ¶ 61; Martin Dep.
135:13–21).
In Tolan, the unarmed suspect was shot, on his
knees, from 15 to 20 feet away, see 572 U.S. at 653; and
the fleeing suspect in Gaillard died from injuries

61a
received when he was struck by a patrol car without
posing any threat to a police officer or third party, see
562 F. App’x at 875. Considering the undisputed facts
here, it no longer remains true that these cases provide
“‘fair and clear notice’ that the [Defendant’s] conduct
would break federal law.” Buckley, 292 F. App’x at 797
(alteration added; citations omitted).
As to the other cases Plaintiff cites: Glasscox considered the repeated use of a taser on a non-threatening
suspect who was attempting to comply with the officer’s commands, see 903 F.3d at 1216; St. George was
decided at the motion-to-dismiss stage and assumed
the suspect was neither threatening the officer nor in
a position of flight by accepting as true the complaint’s
allegations, see 285 F.3d at 1338; and Mercado considered a suicidal subject who “was not committing a
crime, resisting arrest, or posing an immediate threat
to the officers at the time he was shot in the head,” 407
F.3d at 1157–58. None of the cases Plaintiff provides
have “indistinguishable facts clearly establishing
[Plaintiff ’s] constitutional right.” Perez, 809 F.3d at
1222 (alteration added; internal quotation marks and
citation omitted).
As Plaintiff fails to cite any case with materially
similar facts from the Supreme Court, the Eleventh
Circuit, or the Supreme Court of Florida which might
have given Defendant fair warning his actions were
unconstitutional, “[Plaintiff ] can surmount the qualified immunity hurdle only if [Defendant’s] conduct was
‘so far beyond the hazy border between excessive and
acceptable force that [Defendant] had to know he was

62a
violating the Constitution even without case law on
point.’” Alday v. Groover, 601 F. App’x 775, 778 (11th
Cir. 2015) (alterations added; citation and quotation
marks omitted). Plaintiff appears to suggest this hurdle has been met but provides no analysis in support.
(See Resp. 19).
Tellingly, Plaintiff includes nothing except a conclusory quote and a citation to Perez, 809 F.3d at
1223.24 (See Resp. 19). In addition to being decided
after the fatal encounter between Defendant and Prosper took place, Perez deals with facts clearly distinguishable from those here. See 809 F.3d at 1219. In
Perez, witnesses testified that at the time of the shooting, the suspect was subdued, compliant, and on the
ground with his arms restrained, before being subjected to deadly force without warning. Id. Unlike the
suspect in Perez, Prosper was not subdued, compliant,
or restrained. (See Def.’s Facts ¶¶ 60–69). Given Prosper’s erratic behavior, failure to comply with verbal
commands, and physical assault on Defendant, Defendant’s conduct was not “so far beyond the hazy
border between excessive and acceptable force that
[Defendant] had to know he was violating the Constitution even without caselaw on point.” Smith v. Mattox,
127 F.3d 1416, 1419 (11th Cir. 1997) (alteration added).

24

Plaintiff incorrectly cites the case as Pearson v. Suszczynski,
809 F.3d 1213, 1222 (11th Cir. 2016). (See id.).

63a
IV.

CONCLUSION

For the foregoing reasons, it is
ORDERED AND ADJUDGED that Defendant’s
Motion for Final Summary Judgment [ECF No. 102]
is GRANTED. Final judgment will be entered by separate order. The Clerk is directed to mark this case
CLOSED, and all pending motions are DENIED as
moot.
DONE AND ORDERED in Miami, Florida, this
1st day of July, 2019.
/s/ Cecilia M. Altonaga
CECILIA M. ALTONAGA
UNITED STATES
DISTRICT JUDGE
cc:

counsel of record

64a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 17-20323-CIV-ALTONAGA/O’Sullivan
EDELINE JULMISSE PROSPER,
Plaintiff,
v.
ANTHONY MARTIN,
Defendant.

/
ORDER
(Filed Aug. 31, 2018)

THIS CAUSE came before the Court on Defendant, Anthony Martin’s Motion to Dismiss Third
Amended Complaint [ECF No. 65], filed July 23, 2018.
Plaintiff, Edeline Julmisse Prosper, filed a Response
[ECF No. 69] on August 6, 2018, to which Defendant
filed a Reply [ECF No. 73]. The Third Amended Complaint (“TAC”) [ECF No. 60], filed on July 2, 2018,
states a single claim of excessive force under 42 U.S.C.
section 1983. (See id. ¶¶ 30–34). The Court has carefully reviewed the parties’ submissions, the record, and
applicable law.
I.

BACKGROUND

This case arises out of the death of Junior Prosper,
who died after he was shot by Defendant on September
28, 2015. (See id. ¶ 3). Plaintiff is the personal representative of the estate of Junior Prosper, who was her

65a
husband and the father of her unborn child at the time
of his death. (See id. ¶¶ 3–4).
Prosper, a resident of North Miami, was returning
home from his shift as a taxi cab driver when he struck
a traffic sign at low speed and came to a stop. (See id.
VI ¶¶ 15–16). Witnesses alerted the Miami-Dade Police Department to the accident, and Defendant responded to the scene. (See id. ¶¶ 17–18). By the time
Defendant arrived, Prosper had exited his vehicle and
left the scene on foot. (See id. ¶ 19).
In recounting events that occurred after Defendant exited his vehicle, Plaintiff relies on a surveillance
video recording she secured during the investigation of
Prosper’s death — specifically, a surveillance video provided by Biscayne Air Conditioning, Inc. (the “Biscayne
Air Video” [ECF No. 66]). (See TAC ¶¶ 9–13). Plaintiff
alleges Defendant approached Prosper, first in a
marked police vehicle, and then on foot. (See id. ¶ 20).
When Defendant encountered Prosper, he and Prosper
lost their balance and fell into some bushes together.
(See id. ¶ 21). Before this altercation, Prosper did not
engage in any violent or threatening act. (See id.).
After falling into the bushes, Defendant immediately stood up and deployed his Taser on Prosper, who
then crawled away through the bushes. (See id. ¶ 22).
Defendant ran to reengage Prosper on the other side of
the bushes. (See id. ¶ 25). Based on the Biscayne Air
Video, Plaintiff alleges Prosper was either on his hands
and knees or stomach when Defendant approached.
(See id. ¶ 26). Defendant then shot Prosper multiple

66a
times, killing him. (See id. ¶ 27). Defendant did not radio for backup until after he shot and killed Prosper.
(See id. ¶29).
Plaintiff filed her original Complaint [ECF No. 1]
on January 25, 2017. On March 10, 2017, the Court
stayed the case pending investigation into the shooting
by state authorities. (See Order Granting Motion to
Stay [ECF No. 20]). Plaintiff filed her First Amended
Complaint [ECF No. 30] on September 28, 2017; and
following completion of the state investigation, the
case was reopened on February 5, 2018 (see Order
[ECF No. 35]). On April 17, 2018, the Court dismissed
the First Amended Complaint for failure to comply
with federal pleading standards (See Order Granting
Motion to Dismiss [ECF No. 46]). Plaintiff filed a Second Amended Complaint (“SAC”) [ECF No. 49] on April
30, 2018, which the Court dismissed on June 21, 2018.
(See Order Granting Second Motion to Dismiss (“June
21 Order”) [ECF No. 59]).
On July 2, 2018, Plaintiff filed the TAC, which is
the operative pleading. (See generally TAC). Defendant
now moves to dismiss the SAC for failure to state a
claim under Federal Rule of Civil Procedure 12(b)(6)
and on the basis of qualified immunity. (See generally
Mot.).

67a
II.

LEGAL STANDARDS

A. Rule 12(b)(6)
On a Rule 12(b)(6) motion to dismiss, a court does
not reach the merits of the suit, only the sufficiency
of the complaint. See Levy v. City of Hollywood, 90
F. Supp. 2d 1344, 1345 (S.D. Fla. 2000). “To survive a
motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007)). Although this pleading
standard “does not require ‘detailed factual allegations,’ . . . it demands more than an unadorned, thedefendant-unlawfully-harmed-me accusation.” Id. (alteration added) (quoting Twombly, 550 U.S. at 555).
Pleadings must contain “more than labels and conclusions, and a formulaic recitation of the elements of a
cause of action will not do.” Twombly, 550 U.S. at 555
(citation omitted).
Indeed, “only a complaint that states a plausible
claim for relief survives a motion to dismiss.” Iqbal, 556
U.S. at 679 (citing Twombly, 550 U.S. at 556). To meet
this “plausibility standard,” a plaintiff must “plead[ ]
factual content that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Id. at 678 (alteration added) (citing Twombly, 550 U.S. at 556). When reviewing a motion to dismiss, a court must construe the complaint in
the light most favorable to the plaintiff and take the
factual allegations therein as true. See Brooks v. Blue

68a
Cross & Blue Shield of Fla., Inc., 116 F.3d 1364, 1369
(11th Cir. 1997) (citation omitted).
B. Qualified Immunity
“A complaint is subject to dismissal under Rule
12(b)(6) when its allegations, on their face, show that
an affirmative defense bars recovery on the claim.” Cottone v. Jenne, 326 F.3d 1352, 1357 (11th Cir. 2003) (citing Marsh v. Butler Cty., 268 F.3d 1014, 1022 (11th Cir.
2001) (en banc)). Once a qualified immunity defense
has been asserted, unless Plaintiff ’s “allegations state
a claim of violation of clearly established law, a defendant pleading qualified immunity is entitled to dismissal before the commencement of discovery . . . . Absent
such allegations, it is appropriate for a district court to
grant the defense of qualified immunity at the motion
to dismiss stage.” Id. (alterations, internal quotation
marks, and citations omitted).
Qualified immunity protects government officials
“from liability for civil damages insofar as their conduct does not violate clearly established statutory or
constitutional rights.” Iqbal, 556 U.S. at 672 (internal
quotation marks omitted) (quoting Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)). It “balances two important interests — the need to hold public officials
accountable when they exercise power irresponsibly
and the need to shield officials from harassment, distraction, and liability when they perform their duties
reasonably.” Pearson v. Callahan, 555 U.S. 223, 231
(2009).

69a
To be entitled to the qualified immunity defense,
a government official must demonstrate “he was acting within the scope of his discretionary authority
when the allegedly wrongful acts occurred.” Courson v.
McMillian, 939 F.2d 1479, 1487 (11th Cir. 1991) (internal quotation marks and citations omitted). When a
defendant is found to at within the scope of his discretionary authority, the burden “shifts to the plaintiff to
show that qualified immunity is not appropriate.”1 Lee
v. Ferraro, 284 F.3d 1188, 1194 (11th Cir. 2002) (citation omitted).
“To survive a motion to dismiss based upon qualified immunity, the plaintiff must have alleged sufficient facts to support a finding of a constitutional
1

This two-step approach is enshrined in the Eleventh Circuit’s Zeigler/Rich analysis, which provides:
1.
The defendant public official must first prove that
“he was acting within the scope of his discretionary authority when the allegedly wrongful acts occurred.”
2.
Once the defendant public official satisfies his
burden of moving forward with the evidence, the
burden shifts to the plaintiff to show lack of good
faith on the defendant’s part. This burden is met
by proof demonstrating that the defendant public
official’s actions “violated clearly established constitutional law.”
Courson, 939 F.2d at 1487 (quoting Zeigler v. Jackson, 716 F.2d
847, 849 (11th Cir. 1983) (per curiam)); see also Rich v. Dollar,
841 F.2d 1558, 1563–64 (11th Cir. 1988) (discussing two-part
test)). The district court has the discretion to determine in what
order to address each part of the qualified immunity two-part test.
See Keating v. City of Miami, 598 F.3d 753, 762 (11th Cir. 2010)
(citing Pearson, 555 U.S. at 236).

70a
violation of a clearly established law.” Chandler v. Sec’y
of Fla. Dep’t of Transp., 695 F.3d 1194, 1198 (11th Cir.
2012) (citation omitted). The plaintiff “bear[s] the burden of showing that the federal rights allegedly violated were clearly established.” Foy v. Holston, 94 F.3d
1528, 1532 (11th Cir. 1996) (alteration added; citations
omitted). To satisfy the “clearly established” requirement, a law may not be “defined ‘at a high level of generality,’” and the “clearly established law must be
‘particularized’ to the facts of the case.” White v. Pauly,
137 S. Ct. 548, 552 (2017) (citations omitted). Although
the Supreme Court “do[es] not require a case directly
on point, . . . existing precedent must have placed the
statutory or constitutional question beyond debate.”
Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2007) (citations
omitted; alterations added).
A defendant is entitled to qualified immunity “unless the law preexisting the defendant official’s supposedly wrongful act was already established to such a
high degree that every objectively reasonable official
standing in the defendant’s place would be on notice
. . . what the defendant official was doing would be
clearly unlawful given the circumstances.” Pace v.
Capobianco, 283 F.3d 1275, 1282 (11th Cir. 2002) (alteration added; citation omitted). “This exacting standard ‘gives government officials breathing room to make
reasonable but mistaken judgments’ by ‘protect[ing]’
all but the plainly incompetent or those who knowingly
violate the law.’” Young v. Borders, 850 F.3d 1274, 1282
(11th Cir. 2017) (alteration in original) (quoting City
& Cty. of S. F. v. Sheehan, 135 S. Ct. 1765, 1774 (2015)).

71a
There are three ways a plaintiff may show a right
was clearly established: “(1) case law with indistinguishable facts clearly establishing the constitutional
right; (2) a broad statement of principle within the
Constitution, statute, or case law that clearly establishes a constitutional right; or (3) conduct so egregious
that a constitutional right was clearly violated, even in
the total absence of case law.” Perez v. Suszczynski, 809
F.3d 1213, 1222 (11th Cir. 2016) (internal quotation
marks and citation omitted). If case law is used, only
decisions of the Supreme Court, Eleventh Circuit, and
highest relevant state court can clearly establish the
law for qualified immunity purposes. See McClish v.
Nugent, 483 F.3d 1231, 1237 (11th Cir. 2007) (citing
Marsh, 268 F.3d at 1032 n.10).
III.

ANALYSIS

Defendant seeks to dismiss the TAC because: (1) it
fails to meet basic pleading standards under Rule 8
(see Mot. 5–12), and (2) Defendant is entitled to qualified immunity (see id. 12–14). The Court addresses
each argument in turn.
A. Sufficiency of the Pleading
In the June 21 Order, the Court listed five essential facts alleged in the SAC: (1) Prosper exited his vehicle after the traffic accident and left on foot; (2)
Defendant and Prosper lost their balance and fell into
bushes; (3) Prosper did not engage in any threatening act; (4) Prosper crawled through the bushes after

72a
Defendant deployed a Taser against him; and (5) Defendant shot Prosper several times in the stomach
while Prosper was on his knees or stomach, killing
him. (See June 21 Order 5 (citing SAC ¶¶ 12–20)). The
Court then dismissed the SAC because it failed to “explain how [Plaintiff ] knows these events occurred or
on what basis she alleges these facts.” (Id. (alteration
added)).
In an attempt to rectify this deficiency, the TAC
adds six paragraphs (see TAC ¶¶ 8–13) describing the
surveillance video Plaintiff obtained while investigating her husband’s death, and identifies the video as the
basis for her allegation Prosper was “either on his
knees or stomach when Defendant [ ] approached.” Id.
¶ 26 (alteration added). Apart from the six paragraphs
detailing the existence of the Biscayne Air Video, and
the single paragraph alleging it shows Prosper was on
his knees or stomach when Defendant approached, the
TAC is substantively identical to the SAC. (Compare
TAC ¶¶ 1–3; 5–7; 14–25; 27–34, with SAC ¶¶ 1–27).
Even with the seven additional paragraphs Plaintiff added, the allegations in the TAC are threadbare.
They provide few facts; fail to cite to any specific time
stamp in the video (which the TAC fails to attach); do
not identify the precise time Prosper was shot; provide
no timeline of events after the moment of the shooting;
and fail to include evidence from the investigation
Plaintiff claims she conducted (see TAC ¶ 8), including
the autopsy reports, the medical examiner, the State
Attorney file, witnesses, or other surveillance videos.
(See id. ¶¶ 8–13, 26). Nevertheless, by basing her

73a
allegations on the Biscayne Air Video, Plaintiff has incorporated the video into the TAC, allowing the Court
to review it and infer facts from its contents.2 See Horsley v. Feldt, 304 F.3d 1125, 1134 (11th Cir. 2002) (“[A]
document attached to a motion to dismiss may be considered by the court without converting the motion
into one for summary judgment [ ] if the attached document is: (1) central to the plaintiff ’s claim; and (2) . . .
the authenticity of the document is not challenged” (alterations added; citation omitted)).
Defendant contends the Biscayne Air Video “does
not actually show what [Plaintiff ] alleges it shows.”
(Mot. 6 (alteration added; emphasis omitted)). In response, Plaintiff admits the Biscayne Air Video “is far
from a model of clarity” (Resp. 6), but argues the parties’ disagreement about what it shows is “a dispute
not properly resolved on a motion to dismiss” (id. 9).
Upon review of the video, the Court agrees with Plaintiff that the surveillance footage is too ambiguous to
determine the Complaint’s allegations are utterly implausible.
The Biscayne Air Video’s depiction of the confrontation between Defendant and Prosper begins at
timestamp 4:13:31, when Defendant approaches Prosper and the two fall to the ground. (See Biscayne Air
Video 4:13:31–38). One person then stands up and
gestures at the ground for several seconds (See id.
2

Although Plaintiff failed to file the Biscayne Air Video, Defendant conventionally filed the video (see Biscayne Air Video),
and does not dispute its authenticity (see Mot. 6 n.1).

74a
4:13:39–4:14:30). The video then shows Prosper fleeing
as Defendant pursues him. (See id. 4:14:35–40). Prosper falls to the ground as Defendant approaches. (See
id. 4:14:41). While Prosper is on the ground, Defendant, standing over Prosper’s prone body, raises his
arms toward Prosper several times. (See id. 4:14:46).
While Defendant’s arms are raised and pointing toward Prosper, light flashes, either from a flashlight or
perhaps from Defendant’s gun. (See id. 4:14:47). Prosper then rises, staggers briefly – maybe wounded – and
is tackled by Defendant. (See id. 4:14:57–4:15:01).
Prosper does not appear on the video again, which ends
with Defendant walking away unsteadily. (See id.
4:15:20–47).
The Biscayne Air Video clearly shows Prosper on
the ground at least once, with Defendant approaching
and then standing over him. (See id. 4:14:47). Given
Defendant’s posture and the flash of light, it may even
show Defendant shooting Prosper while Prosper was
on his knees or stomach, as the TAC suggests. (See id.;
see also TAC ¶¶ 26–27). Drawing all inferences from
the Biscayne Air Video and the TAC’s allegations in
Plaintiff ’s favor, the Court finds Plaintiff has stated a
plausible Fourth Amendment violation. See Mighty v.
Miami-Dade Cty., 659 F. App’x 969, 972 (11th Cir.
2016) (affirming the denial of a motion to dismiss
where, “[c]onstruing the amended complaint in Plaintiff ’s favor,” Plaintiff alleged a plausible Fourth
Amendment violation because he was “unarmed and
standing in front of his parents’ home when he was
shot and killed” (alteration added)). Because the

75a
video sufficiently establishes a basis for Plaintiff ’s
claim of excessive force, the Court determines whether
her claim is barred by the doctrine of qualified immunity.
B. Qualified Immunity
Taking the allegations in the TAC as true, Prosper
was unarmed and had committed no crime when Defendant chose to pursue him. (See TAC ¶¶ 14, 16, 21).
Drawing all reasonable inferences from the video in favor of Plaintiff, Prosper was fleeing from Defendant
when he fell, and Defendant was standing upright
when he shot Prosper, who was on the ground on his
knees or stomach. (See Biscayne Air Video 4:14:41–47).
From the TAC and video, the Court can also draw an
inference that Prosper was not a threat to Defendant
or to others because he was on his knees or stomach,
and not resisting Defendant when shot. (See TAC ¶ 28;
Biscayne Air Video 4:14:41–47).
To avoid dismissal on the ground of qualified immunity, Plaintiff bears the burden of showing Defendant’s actions (1) violated a constitutional right; and
(2) the constitutional right at issue was “clearly established” at the time of the violation. See Pearson, 555
U.S. at 232 (citing Saucier v. Katz, 533 U.S. 194 (2001)).
This two-pronged inquiry “is an uncomfortable exercise where . . . the answer [to] whether there was a violation may depend on a kaleidoscope of facts not yet
fully developed.” Id. at 239 (quotation marks and citations omitted; alterations in original).

76a
Plaintiff provides the Court with no analysis of the
two-pronged qualified immunity inquiry.3 (See generally id.). Instead, in arguing Defendant is not protected
by qualified immunity, Plaintiff cites two cases: Felio v.
Hyatt, 639 F. App’x 604, 609 (11th Cir. 2016); and Andrade v. Miami Dade County, No. 09-23220-CIV, 2010
WL 4069128, at *1 (S.D. Fla. Sept. 30, 2010). (See Resp.
12–13). Plaintiff cites to Felio for the general proposition that “[t]he Supreme Court held long ago that
deadly force is not justified when the suspect is unarmed and poses no immediate threat to law enforcement officers at the scene.” (Resp. 13 (alteration added;
internal quotation marks and citation omitted)). She
cites to Andrade for the proposition “the use of deadly
force against a mentally ill man engaged in a violent
struggle with the police [is] not objectively unreasonable.”4 (Id. (alteration added; citation omitted)). Neither
case addresses facts comparable to this case; as such,
they are inapplicable to the Court’s analysis of qualified immunity. See Perez, 809 F.3d at 1222 (noting only
3

Despite acknowledging the Court’s “admonition that[ ] the
briefing supplied thus far is inadequate” regarding qualified immunity (Resp. 12 (alteration added; citing June 21 Order 6)),
Plaintiff fails to supplement the analysis of qualified immunity
she first supplied and “basically reasserts the arguments previously made” (id.).
4
Given the court in Andrade in fact granted a motion to dismiss based on qualified immunity, it is unclear why Plaintiff cited
the case to support her argument. See Andrade, 2010 WL 4069128
at *16. In any event, because Andrade is not an opinion from the
Supreme Court, Eleventh Circuit, or Florida Supreme Court, the
Court does not consider it in the qualified immunity analysis. See
McClish, 483 F.3d at 1237.

77a
case law with “indistinguishable facts” can clearly establish a constitutional right).
In arguing Plaintiff ’s claim is barred by qualified
immunity, Defendant points out “the Response fails to
provide any case law clearly establishing that [Defendant’s] use of force . . . was excessive or unjustified.” (Reply 6 (alterations added; citation and footnote call
number omitted)). Defendant contends Plaintiff ’s citation to Felio v. Hyatt does not meet her burden because
her argument is “premised on an allegation — that Mr.
Prosper was on his knees or stomach — which is conclusively refuted by the video.” (Id. 7 (emphasis in original; internal quotation marks omitted)). As previously
explained (see supra III.A), the Court cannot conclude
the video provided by Defendant conclusively refutes
Plaintiff ’s allegation Prosper was on his knees or stomach when shot. (See Biscayne Air Video 4:14:47). Plaintiff ’s allegation is plausible.
Defendant is correct that Plaintiff fails to cite any
case law addressing similar facts to those alleged in
the TAC. Yet, Plaintiff does make the legal argument
“[i]t is clearly unconstitutional to shoot a man who,
having been unlawfully Tasered, attempts to crawl
away and is on his knees when shot.” (Resp. 13 (alteration added)). Plaintiff also asserts “Defendant shot
and killed Mr. Prosper[,] who was on his knees or stomach and not a threat to Defendant [ ], falling squarely
within the framework of Tennessee v. Garner and that
line of longstanding Supreme Court precedent.” (Id. 13
(alterations added)). Defendant, for his part, does not
provide the Court with case law holding that facts

78a
similar to those Plaintiff alleges do merit dismissal under the doctrine of qualified immunity. (See generally
Mot.; Reply).
Because neither party cites to binding authority
from the Supreme Court, the Florida Supreme Court,
or the Eleventh Circuit Court of Appeals addressing
the fact pattern alleged in the TAC, the Court conducts
independent research to determine whether Plaintiff ’s
assertion Defendant’s actions violated a clearly established constitutional right is, in fact, correct. See Monster Energy Co. v. Consol. Distributors, Inc., No. 6:11CV-329-ORL-22-DAB, 2013 WL 12156536, at *7 n.18
(M.D. Fla Jan. 3, 2013) (“At the outset, the Court is disappointed that the parties neglected to cite applicable
and relevant Eleventh Circuit case law that is binding
on this Court. Through the Court’s own research, it
found the applicable standards.”).
The Supreme Court and the Eleventh Circuit have
repeatedly held “the use of deadly force against a nonresisting suspect who pose[s] no danger violates a suspect’s Fourth Amendment right to be free from excessive force.” Perez, 809 F.3d at 1222 (alteration added;
internal quotation marks and citations omitted); see
also Tennessee v. Garner, 471 U.S. 1, 105 (1985). Accordingly, the Supreme Court has rejected attempts to extend the protection of qualified immunity to a police
officer who shoots an unarmed suspect who is on his
knees. See Tolan v. Cotton, 134 S. Ct. 1861, 1867 (2014)
(holding it was error to credit contradictory evidence
of the party seeking summary judgment when the

79a
plaintiff “testified . . . that he was on his knees when
[Defendant] shot him” (alterations added)).
A person has “a right to be free from deadly force
when he [is] not threatening [Defendant], [is] merely
suspected of misdemeanor offenses, and [is] attempting to escape.” Smith v. LePage, 834 F.3d 1285, 1297
(11th Cir. 2016) (alterations added; citations omitted).
Taking the allegations of the TAC as true, Prosper was
not threatening Defendant, was attempting to escape,
and was not suspected of even misdemeanor offenses
— Defendant was responding to a 911 call regarding a
minor vehicle accident, not a crime. (See TAC ¶¶ 16–
20). Under Eleventh Circuit precedent, the use of
deadly force against Prosper — who was unarmed,
fleeing from Defendant, and allegedly did not pose a
threat — violated Prosper’s Fourth Amendment right
to be free from excessive force. See Gaillard v. Commins, 562 F. App’x 870, 877 (11th Cir. 2014) (affirming
the denial of qualified immunity where officer applied
deadly force against “an unarmed suspected felon fleeing on foot” (citation omitted)).
Like the suspect in Tolan, Prosper was unarmed
and on his knees or stomach. See 134 S. Ct. at 1867.
Like the suspect in Smith, Prosper was allegedly not
threatening Defendant and had not committed a serious crime when he attempted to escape. See 834 F.3d
at 1297. Like the suspect in Gaillard, Prosper was unarmed and fleeing on foot before he was shot. See 562
F. App’x at 877. These cases are clearly “particularized
to the facts of [this] case.” Pauly, 137 S. Ct. at 552 (alteration added; internal quotation marks and citation

80a
omitted). Given two of these cases were decided before
the confrontation between Prosper and Defendant in
2015, the Court finds Prosper’s right to be free of
deadly force was clearly established and Defendant is
therefore not entitled to qualified immunity on a motion to dismiss. See Holloman ex rel. Holloman v. Harland, 370 F.3d 1252, 1264 (11th Cir. 2004) (noting the
right must be established “at the time of the alleged
violation” (footnote call number and citation omitted)).
The Court understands a wealth of evidence may
exist to contradict Plaintiff ’s claim. Defendant suggests as much in his Motion. (See Mot. 7). Yet on the
record properly before the Court on a motion to dismiss
— i.e., the four corners of the TAC and the video it incorporates — at the very least “[a] material factual dispute exists about whether [Prosper] posed a threat of
serious harm to [Defendant] when the shooting occurred.” Cantrell v. White, 669 F. App’x 984, 985 (11th
Cir. 2016) (alterations added). At this stage of proceedings, the Court must credit Plaintiff ’s allegations and
draw all reasonable inferences in her favor. In so doing,
the undersigned cannot find Defendant is entitled to
qualified immunity.
IV.

CONCLUSION

For the foregoing reasons, it is
ORDERED AND ADJUDGED that the Motion
to Dismiss Third Amended Complaint [ECF No. 65] is
DENIED. The stay of discovery against Defendant (see
[ECF No. 56]) is LIFTED.

81a
DONE AND ORDERED in Miami, Florida, this
31st day of August, 2018.
/s/ Cecilia M. Altonaga
CECILIA M. ALTONAGA
UNITED STATES
DISTRICT JUDGE
cc:

counsel of record

82a
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 19-12857-AA
-----------------------------------------------------------------------

EDELINE JULMISSE PROSPER,
as Personal Representative of the Estate of Junior Prosper,
Plaintiff - Appellant,
versus
ANTHONY MARTIN,
Miami-Dade Police Officer, Badge 7819, individually,
Defendant - Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Florida
-----------------------------------------------------------------------

(Filed Apr. 29, 2021)
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: WILLIAM PRYOR, Chief Judge, TJOFLAT,
and HULL, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having

83a
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petition for Panel Rehearing is
also denied. (FRAP 40)

